<html>
<title> - HEARING ON RACIAL DISPROPORTIONALITY IN FOSTER CARE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
          HEARING ON RACIAL DISPROPORTIONALITY IN FOSTER CARE

=======================================================================

                                HEARING

                               before the

           SUBCOMMITTEE ON INCOME SECURITY AND FAMILY SUPPORT

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 31, 2008

                               __________

                           Serial No. 110-94

                               __________

         Printed for the use of the Committee on Ways and Means



                  U.S. GOVERNMENT PRINTING OFFICE
48-117                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                      COMMITTEE ON WAYS AND MEANS

                 CHARLES B. RANGEL, New York, Chairman

FORTNEY PETE STARK, California        JIM MCCRERY, Louisiana
SANDER M. LEVIN, Michigan            WALLY HERGER, California
JIM MCDERMOTT, Washington            DAVE CAMP, Michigan
JOHN LEWIS, Georgia                  JIM RAMSTAD, Minnesota
RICHARD E. NEAL, Massachusetts       SAM JOHNSON, Texas
MICHAEL R. MCNULTY, New York         PHIL ENGLISH, Pennsylvania
JOHN S. TANNER, Tennessee            JERRY WELLER, Illinois
XAVIER BECERRA, California           KENNY HULSHOF, Missouri
LLOYD DOGGETT, Texas                 RON LEWIS, Kentucky
EARL POMEROY, North Dakota           KEVIN BRADY, Texas
STEPHANIE TUBBS JONES, Ohio          THOMAS M. REYNOLDS, New York
MIKE THOMPSON, California            PAUL RYAN, Wisconsin
JOHN B. LARSON, Connecticut          ERIC CANTOR, Virginia
RAHM EMANUEL, Illinois               JOHN LINDER, Georgia
EARL BLUMENAUER, Oregon              DEVIN NUNES, California
RON KIND, Wisconsin                  PAT TIBERI, Ohio
BILL PASCRELL, JR., New Jersey       JON PORTER, Nevada
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
CHRIS VAN HOLLEN, Maryland
KENDRICK MEEK, Florida
ALLYSON Y. SCHWARTZ, Pennsylvania
ARTUR DAVIS, Alabama

             Janice Mays, Chief Counsel and Staff Director

                  Brett Loper, Minority Staff Director

           SUBCOMMITTEE ON INCOME SECURITY AND FAMILY SUPPORT

                  JIM MCDERMOTT, Washington, Chairman

FORTNEY PETE STARK, California        JERRY WELLER, Illinois
ARTUR DAVIS, Alabama                 WALLY HERGER, California
JOHN LEWIS, Georgia                  DAVE CAMP, Michigan
MICHAEL R. MCNULTY, New York         JON PORTER, Nevada
SHELLEY BERKLEY, Nevada              PHIL ENGLISH, Pennsylvania
CHRIS VAN HOLLEN, Maryland
KENDRICK MEEK, Florida

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Ways and Means are also published 
in electronic form. The printed hearing record remains the official 
version. Electronic submissions are used to prepare both printed and 
electronic versions of the hearing record, the process of converting 
between various electronic formats may introduce unintentional errors 
or omissions. Such occurrences are inherent in the current publication 
process and should diminish as the process is further refined.


                            C O N T E N T S

                               __________

                                                                   Page

Advisory of July 24, 2008, announcing the hearing................     2

                               WITNESSES

Kay E. Brown, Director of Education, Workforce, and Income 
  Security, Government Accountability Office.....................     7
Marian Harris, Ph.D., Co-Chair, Washington State Racial 
  Disproportionality Advisory Committee, Tacoma, Washington......    33
Terry Solomon, Ph.D., Executive Director, Illinois African 
  American Family Commission, Chicago, Illinois..................    60
Oronde A. Miller, Director, Systems Improvement Methodologies, 
  Casey Family Programs..........................................    66
Daryle Conquering Bear, FosterClub, Stoneham, Colorado...........    79

                                 ______

                       SUBMISSIONS FOR THE RECORD

Child Welfare League of America, Statement.......................    96
Child Defense Fund, Statement....................................   106
Darlene King, Statement..........................................   115
Elizabeth Bartholet, Statement...................................   116
Joe Salmonese, Statement.........................................   122
Washington Health Policy Coalition, Statement....................   123


          HEARING ON RACIAL DISPROPORTIONALITY IN FOSTER CARE

                              ----------                              


                        THURSDAY, JULY 31, 2008

             U.S. House of Representatives,
                       Committee on Ways and Means,
        Subcommittee on Income Security and Family Support,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 10:00 a.m., in 
room B-318, Rayburn House Office Building, Hon. Jim McDermott 
(Chairman of the Subcommittee) presiding.
    [The advisory announcing the hearing follows:]

ADVISORY FROM THE COMMITTEE ON WAYS AND MEANS

            COMMITTEE ON INCOME SECURITY AND FAMILY SUPPORT

                                                CONTACT: (202) 225-1025
FOR IMMEDIATE RELEASE
July 24, 2008
ISFS-18

McDermott Announces Hearing on Racial Disproportionality in Foster Care

    Congressman Jim McDermott (D-WA), Chairman of the Subcommittee on 
Income Security and Family Support, today announced a hearing to 
examine racial disproportionality in the foster care system. The 
hearing will take place on Thursday, July 31, 2008, at 10:00 a.m. in 
room B-318 Rayburn House Office Building.
      
    In view of the limited time available to hear witnesses, oral 
testimony at this hearing will be from invited witnesses only. However, 
any individual or organization not scheduled for an oral appearance may 
submit a written statement for consideration by the Subcommittee and 
for inclusion in the printed record of the hearing.
      

BACKGROUND:

      
    Research has concluded that a significantly greater portion of 
African American children enter and remain in the foster care system 
when compared to children of other races and ethnicities. The 
disproportionate representation of these children in foster care occurs 
despite the fact that there are no inherent differences in the rates at 
which they are abused or neglected, according to the National Incidence 
Study of Child Abuse and Neglect. Native American children also 
experience higher rates of representation in foster care.
      
    A report released by the Government Accountability Office (GAO) in 
July 2007 found African American children across the nation were more 
than twice as likely to enter foster care compared to white children in 
FY 2004, and these children remained in foster care roughly 9 months 
longer. Furthermore, GAO found Native American children represented 
just 1 percent of all children in the 2000 Census, but comprised over 2 
percent of children in foster care at the end of FY 2004. Higher rates 
of poverty, limited access to vital support services, racial bias, and 
difficulty recruiting prospective adoptive families for these children 
are often cited as the primary factors that contribute to the problem.
      
    The GAO report highlighted the potential benefits of increased 
Federal support for relatives who become legal guardians of foster 
children for reducing the over-representation of African American 
children in the system. Bipartisan legislation (H.R. 6307) introduced 
by Chairman McDermott and Ranking Member Jerry Weller and passed by the 
House last month would provide for these guardianship payments, among 
other things.
      
    In announcing the hearing, Chairman McDermott stated: ``Racial 
disproportionality challenges our ability to ensure the well-being and 
permanency of every child in our nation's foster care system. 
Overcoming this problem is critical to achieving positive outcomes for 
all children in care. This hearing will allow us to get a better 
understanding of the factors that contribute to this problem and 
promising strategies that will lead to a long-term solution.''
      

FOCUS OF THE HEARING:

      
    The hearing will examine the prevalence of racial 
disproportionality in the foster care system, the primary factors that 
contribute to this problem, and promising initiatives that are 
currently being implemented in several States to address it.
      

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Please Note: Any person(s) and/or organization(s) wishing to submit 
for the hearing record must follow the appropriate link on the hearing 
page of the Committee website and complete the informational forms. 
From the Committee homepage, http://waysandmeans.house.gov, select 
``110th Congress'' from the menu entitled, ``Hearing Archives'' (http:/
/waysandmeans.house.gov/Hearings.asp?congress=18). Select the hearing 
for which you would like to submit, and click on the link entitled, 
``Click here to provide a submission for the record.'' Once you have 
followed the online instructions, complete all informational forms. 
ATTACH your submission as a Word or WordPerfect document, in compliance 
with the formatting requirements listed below, by close of business 
August 14, 2008. Finally, please note that due to the change in House 
mail policy, the U.S. Capitol Police will refuse sealed-package 
deliveries to all House Office Buildings. For questions, or if you 
encounter technical problems, please call (202) 225-1721.
      

FORMATTING REQUIREMENTS:

      
    The Committee relies on electronic submissions for printing the 
official hearing record. As always, submissions will be included in the 
record according to the discretion of the Committee. The Committee will 
not alter the content of your submission, but we reserve the right to 
format it according to our guidelines. Any submission provided to the 
Committee by a witness, any supplementary materials submitted for the 
printed record, and any written comments in response to a request for 
written comments must conform to the guidelines listed below. Any 
submission or supplementary item not in compliance with these 
guidelines will not be printed, but will be maintained in the Committee 
files for review and use by the Committee.
      
    1. All submissions and supplementary materials must be provided in 
Word or WordPerfect format and MUST NOT exceed a total of 10 pages, 
including attachments. Witnesses and submitters are advised that the 
Committee relies on electronic submissions for printing the official 
hearing record.
      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
      
    3. All submissions must include a list of all clients, persons, 
and/or organizations on whose behalf the witness appears. A 
supplemental sheet must accompany each submission listing the name, 
company, address, telephone and fax numbers of each witness.
      

    Note: All Committee advisories and news releases are available on 
the World Wide Web at http://waysandmeans.house.gov.
      

    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TTD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.

                                 <F-dash>

    Chairman MCDERMOTT. This meeting will come to order. Today 
we are going to talk about racial disproportionality, which is 
a fancy name for the fact that certain groups appear more in 
foster care than others.
    Foster care is obviously a necessity for some children. Our 
goal, really, for every child is a permanent, loving home. 
Unfortunately, this goal seems like a distant dream for too 
many kids in foster care, especially for African American and 
Native American children.
    We are here today to focus on the over-representation of 
some children of color in foster care, a problem that has been 
called racial disproportionality. Big words don't do well in 
the press, so we will try and avoid them as much as possible.
    As you can see from the chart which is in front of you on 
the screen which comes from the GAO, white kids are to the 
left, and then you've got African American kids. You can see 
that the number of children, the red bars, are the number of 
children in foster care. So, you can see that African American, 
and then you can see on the far right, Native Americans, there 
is very few Native American children, but disproportionately, 
again, they are in foster care. It's that issue that we are 
really trying to look at today.
    Now, there is not really, in my view and I have been 
looking at these things, for a long time. When I was in the 
State legislature, I was involved as a child psychiatrist in 
looking at deprivation of kids, deprivation of parents, their 
parental rights. So, I know a lot about what goes on in a 
State.
    There really is not a single factor driving the over-
representation of these kids in the system. Poverty, limited 
services in certain communities, single-parent families, racial 
bias, difficulty in recruiting prospective adoptive homes all 
play a role in this. I think that I started the first, or maybe 
the second adoption subsidy program in the United States, and 
it was back in 1971, trying to get racially mixed kids into 
adoptive homes. So, I have seen the system for a long time, and 
we're really looking forward to hearing from the witnesses.
    Unfortunately, I think some of what I saw in 1971 is still 
going on today. So, we may not learn much, but I think it's 
important for everybody at this time to really be thinking 
about it.
    We are also looking and listening for solutions. I want to 
know if the panel agrees that investments in strengthening 
families will make abuse and neglect less likely to occur. If 
so, what are the interventions that we should focus on first? 
Obviously, we are not going to be able to do everything under 
the sun, but we can pick some things that may make some sense.
    Additionally, improvements to child welfare practice needs 
to prevent racial bias from affecting placement decisions. I 
think we need to remember that the rate of entry into foster 
care is only part of the problem. Longer stays for some 
children also increases the disproportionality of these kids. 
It should trouble us when we hear that African American 
children, on average, remain in care about 9 months longer than 
white kids. More comprehensive service to help children return 
to their families, and improve the recruitment of potential 
adoptive families for children who cannot return home would 
both likely reduce the time these children spend in foster 
care.
    Now, the Subcommittee recently acted on another response 
that may likewise move children more quickly from foster care 
to permanent homes, ``The Fostering Connection Act,'' which Mr. 
Weller and I introduced, and which we rifled out of here like a 
rifle shot over to the Senate, and now we watch it sit over 
there. I understand there is going to be a hearing tomorrow, a 
mark-up in the Senate, at least there was one scheduled in the 
Finance Committee, to look at this issue.
    So, we are still hopeful that it may get through before we 
get out of here. The bill would give Federal payments to legal 
guardians of foster kids, so-called ``kinship care.'' GAO 
specifically recommended this step to reduce the over-
representation of African American children in foster care.
    Supporting relative guardianship will open the doors for 
more permanent homes for all children, but it is especially 
felt to be helpful for African American kids, given their lower 
adoption rates in our system.
    The same legislation also would provide direct access to 
Federal foster care and adoption assistance to Native American 
tribes. This is a bill that Mr. Weller and I cosponsored, 
allowing for tribal communities to find permanent homes for 
Native American children. I am hopeful, as I said, about the 
Senate taking this bill up.
    Like so many complex problems, racial disproportionality is 
not explained by a single cause, and it isn't going to be 
solved by a single remedy. Saying a problem is difficult is not 
saying it is insurmountable. There are steps we can take today 
that will make a positive difference, even as we continue to 
search for additional solutions in the future.
    I would like to yield the microphone to Mr. Weller, my 
Ranking Member. I said to him this is our last hearing with him 
on the Subcommittee. Now, there may be one in September. He 
wants to choose the subject, but we will see about that. Jerry.
    Mr. WELLER. Well, thank you, Mr. Chairman. If this is our 
last hearing, I just want to say I have enjoyed working with 
you, and we still have six more months to work together in my 
role as your Ranking Member. I just want to commend you for the 
leadership you have given, and the opportunity to work with you 
in a bipartisan way. I thank you for that.
    I also want to thank you for arranging today's hearing, and 
thank the witnesses for joining us. Today's hearing reviews 
complicated questions about race in the nation's child welfare 
system, including foster care.
    As we have learned from prior hearings in this and other 
congresses, this is a system in need of improvement and reform. 
To our credit, and with the help of many advocacy and 
supportive groups and individuals, we have made progress this 
year.
    Just last month, the House passed the Bipartisan Fostering 
Connections for Success Act, H.R. 6307. Chairman McDermott and 
I developed this legislation, based on many solid policy 
recommendations, and it includes important policy changes I 
have advocated for years. Those include: increasing Federal 
reimbursement rates for training child welfare workers; and 
ensuring that Native American tribes have equal access to 
Federal foster care funds.
    Today's hearing will let us take a step back and consider 
how the changes in H.R. 6307 might help prevent abuse and 
neglect, quickly re-unify families, and promote adoption. As we 
will hear, these issues are especially important for African 
American and Native American children, who not only enter 
foster care more often than other children, but tend to stay 
there longer, compounding front-end concerns.
    I want to welcome Daryle Conquering Bear, who will discuss 
the importance of providing more equitable access to foster 
care and adoption services for Native American children in 
tribal areas. I have long supported legislation to do so, as 
has my colleague, Dave Camp, amongst others. This provision is 
included in H.R. 6307, as unanimously passed by the House. Our 
first Americans should be treated as full Americans, including 
in child welfare programs.
    It is our hope this provision will translate into better 
care and better outcomes for the approximately 10,000 young 
Native Americans in foster care today. Other provisions in our 
bill encourage young Americans to get more and better 
education.
    For the first time, staying in high school through 
graduation will be a condition of receiving Federal foster 
care, relative guardian, or adoption payments. This requirement 
sends out a very clear message: that young people are expected 
to complete at least high school. Getting a high school diploma 
is the foundation for a successful and independent life. As 
David Brooks described in an excellent piece in the New York 
Times on July 29th, the skills gap caused by declines in high 
school graduation since the late sixties and rising family 
breakdown go a long way toward explaining rising concerns about 
insecurity and inequality in recent decades.
    Given that, high school completion and continued education 
is especially important for youth in foster care, who face high 
hurdles in life, and certainly do not need more.
    We are also joined by Dr. Terry Solomon, executive director 
of the Illinois African American Family Commission. The 
commission shares my view on the paramount importance of 
educational achievement to not only foster youth, but all 
youth. Without better educational outcomes, the building block 
of a better life for all families, we will not be able to 
realize our common goal: preventing abuse and neglect for 
children of all backgrounds.
    I want to thank the Chairman for working with me on these 
important issues. It has been a pleasure. We have more to do. I 
look forward to our continued efforts to work with our 
colleagues in the Senate, ultimately seeing the Fostering 
Connections for Success Act signed into law before the end of 
this year. It is something we can get done. I am committed to 
working with the Chairman and my Senate colleagues to get it 
done.
    I also want to work with our friends in the advocacy 
community to help us get it done as well, as we make it a 
priority in the remaining items of business for the House and 
Senate. I look forward to the testimony of our witnesses this 
morning. Good morning, and thank you.
    I yield back, Mr. Chairman.
    Chairman MCDERMOTT. All other Members will have five 
legislative days to submit anything they want to put in the 
record.
    Our first witness is Kay Brown, who is the Director of 
Education, Workforce, and Income Security from GAO.
    Ms. Brown.

  STATEMENT OF KAY E. BROWN, ASSISTANT DIRECTOR OF EDUCATION, 
   WORKFORCE, AND INCOME SECURITY, GOVERNMENT ACCOUNTABILITY 
                             OFFICE

    Ms. BROWN. Mr. Chairman and Members of the Subcommittee, 
thank you for inviting me here to discuss our work on the 
disproportionate number of African American children in foster 
care. This information is from a report we issued in July 2007.
    This morning I will focus on three things: the level of 
disproportionality for these children in the foster care 
system; the factors that contribute to this situation; and 
promising strategies that may help address it.
    First, regarding the level of disproportionality, national 
studies have shown that children suffer from abuse and neglect 
at the same rates, regardless of their race or ethnicity. Yet 
we found that African American children were about three times 
more likely than white children to be placed in foster care in 
2006. Furthermore, African American children remained in foster 
care about 9 months longer than white children. All but one 
State had some level of disproportionality.
    Our study focused on African American children. However, 
nationally, Native American children, as evidenced by the chart 
we saw earlier, are also experiencing higher rates of 
representation in foster care.
    Second, regarding the contributing factors, this is a 
complex issue. Many of the factors we identified are inter-
related. Some are linked to poverty. While families of all 
races live in poverty, African American families are more 
likely to do so than white families. Families living in poverty 
may find it more difficult to access supports and services, 
such as affordable housing and counseling that could help them 
with their problems when they arise.
    However, other factors also play a role. These include bias 
and cultural misunderstanding on the part of key 
decisionmakers, such as mandated reporters and caseworkers, as 
well as distrust of the child welfare system on the part of 
African American families.
    In addition, when children cannot be reunited with their 
families, State officials reported difficulties in finding them 
appropriate permanent homes, in part because of the challenges 
in recruiting adoptive parents, such as for older African 
American children.
    Finally, regarding promising strategies, most States report 
taking steps to address the factors I just mentioned. They are 
working to increase access to support services, providing 
training to help mitigate bias and cultural misunderstanding, 
and broadening their search for other relatives to serve as 
care givers, such as paternal kin.
    State officials have also identified areas where Federal 
policies can help support promising practices. For example, 
these officials cited the benefits of Federal subsidies for 
adoptive families. However, this has not solved their struggle 
to recruit enough adoptive parents. Over the last 5 years, 
African American children, as well as Native American children, 
have consistently experienced lower rates of adoption than 
children of other races and ethnicities.
    As an alternative to adoption, legal guardianship provides 
another permanency option. Some States believe subsidizing 
legal guardianship can help reduce disproportionality, because 
African American children are more likely than white children 
to be placed with relatives for foster care. Although these 
relatives, such as grandmothers, may want to permanently care 
for the children, they may be less willing or able to adopt 
them, in part because adoption entails terminating the parental 
rights of their kin.
    In States that have experimented with these subsidies, 
studies have found that they reduce the number of children in 
foster care without increasing costs, and provided comparable 
levels of stability and emotional and physical health. With 
this in mind, in our July 2007 report we suggested that 
Congress consider amending current law to allow subsidies for 
legal guardianships, similar to those provided for adoptions. 
The subsidies in the Fostering Connections to Success Act are 
very consistent with this idea.
    In conclusion, the issues surrounding the 
disproportionality of African American children in foster care 
are complex, inter-related, and pervasive. No single strategy 
can fully address them. However, the circumstances warrant a 
concerted effort on the part of the Federal Government, States, 
and localities.
    This concludes my prepared statement. I would be happy to 
answer any questions you or other Members of the Subcommittee 
have.
    [The prepared statement of Ms. Brown follows:]

    [GRAPHIC] [TIFF OMITTED] T8117.001
    
    [GRAPHIC] [TIFF OMITTED] T8117.002
    
    [GRAPHIC] [TIFF OMITTED] T8117.003
    
    [GRAPHIC] [TIFF OMITTED] T8117.004
    
    [GRAPHIC] [TIFF OMITTED] T8117.005
    
    [GRAPHIC] [TIFF OMITTED] T8117.006
    
    [GRAPHIC] [TIFF OMITTED] T8117.007
    
    [GRAPHIC] [TIFF OMITTED] T8117.008
    
    [GRAPHIC] [TIFF OMITTED] T8117.009
    
    [GRAPHIC] [TIFF OMITTED] T8117.010
    
    [GRAPHIC] [TIFF OMITTED] T8117.011
    
    [GRAPHIC] [TIFF OMITTED] T8117.012
    
    [GRAPHIC] [TIFF OMITTED] T8117.013
    
    [GRAPHIC] [TIFF OMITTED] T8117.014
    
    [GRAPHIC] [TIFF OMITTED] T8117.015
    
    [GRAPHIC] [TIFF OMITTED] T8117.016
    
    [GRAPHIC] [TIFF OMITTED] T8117.017
    
    [GRAPHIC] [TIFF OMITTED] T8117.018
    
    [GRAPHIC] [TIFF OMITTED] T8117.019
    
    [GRAPHIC] [TIFF OMITTED] T8117.020
    
    [GRAPHIC] [TIFF OMITTED] T8117.021
    
    [GRAPHIC] [TIFF OMITTED] T8117.022
    
    [GRAPHIC] [TIFF OMITTED] T8117.023
    
    [GRAPHIC] [TIFF OMITTED] T8117.024
    

                                 <F-dash>
    Chairman MCDERMOTT. Thank you very much for your testimony. 
I neglected to say that we ask you to contain your remarks to 5 
minutes.
    The GAO is absolutely trained. She ended just as it went to 
red.
    [Laughter.]
    Chairman MCDERMOTT. That reminded me that I hadn't said 
anything about it. So, if you try and hold your comments to 5 
minutes, that will give us some time for questions.
    Ms. Harris is from Washington State Racial 
Disproportionality Advisory Committee, from Tacoma, Washington. 
Dr. Harris.

  STATEMENT OF MARIAN S. HARRIS, PH.D., CO-CHAIR, WASHINGTON 
  STATE RACIAL DISPROPORTIONALITY ADVISORY COMMITTEE, TACOMA, 
                           WASHINGTON

    Dr. HARRIS. Thank you, Mr. Chairman, for inviting me here 
to talk about what we are doing in the State of Washington 
regarding disproportionality. I am here to report on findings 
from the Washington State Racial Disproportionality Advisory 
Committee.
    In 2007, Substitute House Bill 1472 created the Washington 
State Racial Disproportionality Advisory Committee to determine 
if racial disproportionality exists in the State of Washington. 
Findings from this Committee are as follows. Yes, racial 
disproportionality does exist in Washington State's child 
welfare system.
    What points in the Washington State child welfare system 
reflect the highest level of disproportionality for children of 
color? Those points are the following: The initial referral to 
child protective services; the decision to remove a child from 
the home; and if a child is in care for two years.
    Compared with white children referred to child protective 
services after referrals, Indian children are 1.6 times as 
likely to be removed from home, and twice as likely to remain 
in foster care for over 2 years. Black children are 1.2 times 
more likely to be removed from their home, and 1.5 times more 
likely to remain in care for over 2 years. Hispanic children 
were no more likely to be removed from home, or to remain in 
care for over 2 years. Asian children were no more likely to be 
removed from home, and less likely to remain in care for 2 
years.
    Children from low income families are more likely to be in 
the Washington State child welfare system than children from 
more affluent families.
    Are children from single-parent families more likely to be 
in the system than children from two-parent households? Our 
findings were yes; children of single-parent families are more 
likely to be in the Washington State child welfare system than 
children from two-parent families.
    How do outcomes for children of color differ from outcomes 
of white children? For outcomes such as length of stay, Indian 
and black children have less favorable outcomes than white 
children. Asian and Hispanic children are as likely as white 
children to remain in foster care.
    Additionally, when statistically controlling for poverty, 
family structure, and case characteristics, the patterns of 
disproportionality did not change for black, Hispanic, or Asian 
children. For Indian children, however, disproportionality 
after referral was reduced for about 25 percent.
    Now, what are we doing in Washington State? These findings 
were presented to our secretary on June 25th of this year. The 
next phase of this work calls for us, as a Committee, to come 
up with a remediation plan to address this problem. We are 
currently working on that plan. We have to have the plan in to 
the secretary of the department of health and social services 
by December 1st.
    We are meeting on September 18th and 19th with members from 
the 6 regions in the State of Washington. We want to hear what, 
if anything, they are doing about this problem in their various 
regions.
    Then, we, as a Committee, decided because racism and racial 
bias are at the root of this problem, we, as a Committee, went 
through undoing racism training, and we also have demanded that 
the secretary, all managers, and all regional directors go 
through this training.
    As I am speaking to you this morning, supervisors and 
managers from the various regions are in Seattle, Washington, 
actually going through the undoing racism training.
    It is very important for managers to be on board with any 
type of efforts that we are going to try to put in place to 
eradicate the problem of disproportionality. Our goal is that 
any child who comes into the Washington State system receive 
equitable treatment.
    This ends my testimony.
    [The prepared statement of Dr. Harris follows:]

    [GRAPHIC] [TIFF OMITTED] T8117.025
    
    [GRAPHIC] [TIFF OMITTED] T8117.026
    
    [GRAPHIC] [TIFF OMITTED] T8117.027
    
    [GRAPHIC] [TIFF OMITTED] T8117.028
    
    [GRAPHIC] [TIFF OMITTED] T8117.029
    
    [GRAPHIC] [TIFF OMITTED] T8117.030
    
    [GRAPHIC] [TIFF OMITTED] T8117.031
    
    [GRAPHIC] [TIFF OMITTED] T8117.032
    
    [GRAPHIC] [TIFF OMITTED] T8117.033
    
    [GRAPHIC] [TIFF OMITTED] T8117.034
    
    [GRAPHIC] [TIFF OMITTED] T8117.035
    
    [GRAPHIC] [TIFF OMITTED] T8117.036
    
    [GRAPHIC] [TIFF OMITTED] T8117.037
    
    [GRAPHIC] [TIFF OMITTED] T8117.038
    
    [GRAPHIC] [TIFF OMITTED] T8117.039
    
    [GRAPHIC] [TIFF OMITTED] T8117.040
    
    [GRAPHIC] [TIFF OMITTED] T8117.041
    
    [GRAPHIC] [TIFF OMITTED] T8117.042
    
    [GRAPHIC] [TIFF OMITTED] T8117.043
    
    [GRAPHIC] [TIFF OMITTED] T8117.044
    
    [GRAPHIC] [TIFF OMITTED] T8117.045
    
    [GRAPHIC] [TIFF OMITTED] T8117.046
    
    [GRAPHIC] [TIFF OMITTED] T8117.047
    
    [GRAPHIC] [TIFF OMITTED] T8117.048
    
    [GRAPHIC] [TIFF OMITTED] T8117.049
    

                                 <F-dash>
    Chairman MCDERMOTT. Thank you very much. Ms. Solomon is 
from Illinois. Dr. Solomon is the head of the Illinois African 
Commission.
    You may notice that the Chairman and the Ranking Member got 
their States up on the table here.
    So, welcome, Dr. Solomon.

   STATEMENT OF TERRY A. SOLOMON, PH.D., EXECUTIVE DIRECTOR, 
 ILLINOIS AFRICAN AMERICAN FAMILY COMMISSION, CHICAGO, ILLINOIS

    Dr. SOLOMON. Good morning, Chairman and Ranking Member 
Weller, and Members of the Subcommittee. I am Dr. Terry 
Solomon, executive director of the African American family 
commission for the State of Illinois.
    Today I speak on behalf of the Illinois Department of 
Children and Family Services, and on behalf of the National 
Association of Public Child Welfare Administrators, an 
affiliate of the American Public Human Services Association. I 
appreciate the opportunity to testify before you today about 
how Illinois has implemented reforms to reduce 
disproportionality and disparity within our child welfare 
system.
    The term ``disproportionality'' refers to the over or 
under-representation of a race or cultural group within the 
system. ``Disparity'' refers to inequity in the access to and 
utilization of and/or quality of services received by racial or 
ethnic minority, compared to a non-minority within the system.
    Illinois has an unfortunate and extensive history of 
disproportionality and disparity within its child welfare 
system. In 1996, national data showed that Illinois had the 
highest per capita rate of children in foster care in the 
nation, and that 79 percent of the children in foster care were 
African American. Although the State reduced its overall number 
of children in care in 2007, African American children made up 
19 percent of Illinois's general population, but accounted for 
59 percent of the population of children in the child welfare 
system.
    The data showed that Illinois African American children 
were more likely to be removed from their families, remain in 
substitute care for longer periods, and were more likely to 
transition or age out of substitute care than children from 
other racial groups.
    Most troubling, African American children were more likely 
to be investigated for maltreatment than others. It was clear 
that the system was in need of urgent reform to address the 
problem of disproportionality and disparity.
    In July 2006, the Illinois Department of Children and 
Family Services center region engaged key community partners, 
and began planning for a permanency enhancements symposium to 
examine permanency options, practices, and procedures. The 
symposium provided a forum for child welfare stakeholders to 
discuss systemic disproportionality.
    This group is in the process of developing transformation 
teams that will identify the policies and procedures that 
contribute to disproportionality, recommend legislation and 
policy changes, improve relations with court personnel, birth 
parents, and community leaders, and improve permanency 
outcomes, including reunification.
    Although the initiative is still in its early stages, the 
commission has already recognized quantitative outcomes of this 
work.
    First, the permanency enhancement symposium effectively 
engaged a wide range of child welfare stakeholders in an open, 
honest, and difficult dialog that allowed the group to directly 
address the issue of disproportionality within the system.
    Second, the symposium involved court personnel and judges 
in their examination of systemic shortcomings. They have 
responded with heightened awareness to the issue of 
disproportionality and disparity.
    This model of change relies heavily on the principles of 
community engagement, and includes involving the child welfare 
community, the courts, the educational community, social 
workers, and other professionals that work directly with 
families. The work in which Illinois is engaged in mirrors 
strategies of other States, such as Texas, are employing to 
ensure that African American children are not more likely to be 
removed from their homes or age out of foster care.
    Nationally, NAPCWA has made the issue of disproportionate 
representation of children of color in the child welfare system 
one of its highest priorities. In partnership with Casey Family 
Programs, NAPCWA is leading a national project called 
``Positioning Public Child Welfare Initiative: Strengthening 
Families in the 21st century,'' which will position the field 
to speak with one voice about its purpose and roles in 
improving outcomes for vulnerable children, youth, and 
families.
    A disproportionality Subcommittee of subject matter experts 
are currently concentrating on developing written guidance to 
be used by the child welfare system.
    In closing, I do want to offer some recommendations. First, 
States are already struggling to meet existing program costs 
with limited resources. Their ability to continue to develop 
initiatives and implement strategies that address 
disproportionality and disparity within the child welfare 
system will require additional Federal support.
    Also, the Federal Government could also include carefully 
considered process in outcome measures in the child and family 
services review. Additions to the child and family service 
review should be accompanied by additional technical systems in 
support to States as they work to effect change in the system.
    Also, federally supported research around this issue will 
further enhance the efforts of both the current and future 
child welfare workforce and other systems of professionals to 
reverse the trend of disproportionality.
    Illinois is one of many States that are struggling to 
address institutional disproportionality and disparity.
    We also finally urge Congress to consider legislation that 
will more fully support reunification services to children 
returning to permanency with their family.
    I thank you for the opportunity to testify, and I am happy 
to answer any questions you may have.
    [The prepared statement of Dr. Solomon follows:]

   Statement of Terry Solomon, Ph. D., Executive Director, Illinois 
         African American Family Commission, Chicago, Illinois

    Good morning, Chairman McDermott, Ranking Member Weller, and 
members of the Subcommittee. I am Dr. Terry A. Solomon, Executive 
Director of the African American Family Commission for the State of 
Illinois. The African American Family Commission was created by 
Governor Jim Edgar in 1994 to assist the Illinois Department of 
Children and Family Services (DCFS) in developing and implementing 
programs relevant to African American families. In August 2004, Public 
Act 093-0867 expanded the scope of the Commission. The purpose of the 
Illinois African American Family Commission is to guide the efforts of 
and collaborate with various state agencies, including DCFS, to improve 
and expand existing human services and educational and community 
development programs for African Americans. The Commission is a 
fifteen-member statewide commission whose members are appointed by the 
Governor of Illinois, and include community leaders, child welfare 
professionals, ministers, parents, business leaders, educators and 
community activists dedicated to enhancing the welfare of children and 
families.
    I am also speaking on behalf of the National Association of Public 
Child Welfare Administrators (NAPCWA), an affiliate of the American 
Public Human Services Association (APHSA). APHSA is a nonprofit, 
bipartisan organization representing state and local human service 
professionals for over 76 years. NAPCWA, created as an affiliate in 
1983, works to enhance and improve public policy and administration of 
services for children, youth, and families. As the only organization 
devoted solely to representing administrators of state and local public 
child welfare agencies, NAPCWA brings an informed view of the problems 
facing families today to the forefront of child welfare policy.
    On behalf of APHSA, NAPCWA, and the state of Illinois, I would like 
to thank the Subcommittee for recognizing the importance of addressing 
the issue of disproportionate representation of children of color in 
the nation's child welfare system. I appreciate the opportunity to 
testify before you today about how Illinois has implemented systemic 
reform measures to reduce conditions of disproportionality within our 
state child welfare system.

DISPROPORTIONALITY IN THE CHILD WELFARE SYSTEM
    Disproportionality permeates the entirety of our National child 
welfare system--from the children who enter the system to outcome 
disparities for children and youth of color throughout their time in 
the system. Sadly, this systemic trend is not limited to the child 
welfare system alone. Disproportionality has been a burgeoning issue in 
various programs and systems, including special education services, 
juvenile justice, and the criminal justice system.
    When considering disproportionality within the child welfare 
system, it is necessary to focus on both population differences, as 
well as differences in treatment outcomes. According to the Casey-
Center for the Study of Social Policy Alliance for Racial Equity in the 
Child Welfare System, both ``disproportionality'' and ``disparity'' 
exist within the system. The term disproportionality refers to the 
over--or under-representation of a particular race or cultural group 
within a system, meaning that this group populates that system at a 
lower or higher rate than their percentage of the general population. 
Disparity refers to unequal treatment in the need for, access to, 
utilization of, and/or quality of services received by children of 
color when comparing a racial or ethnic minority to a non-minority 
within the system itself.
    There are a number of factors that may contribute to a 
disproportionate number of African American children entering the child 
welfare system, including socio-economic status, departmental policies 
and procedures, and the decisionmaking of departmental staff and 
administrators. When more children of color are in fact entering the 
system, it means that these children are more likely to be removed from 
their homes upon report and investigation of abuse and neglect. 
Research has shown that incidents of abuse and neglect are not more 
prevalent among African American families versus those of other races, 
however these families are more likely to be reported and investigated 
for abuse and neglect.
    Disparity can be examined throughout the system by focusing on 
treatment plan development, service delivery, and resources allocation. 
It can also be examined by focusing on key decision points within the 
life of a case, including kin placement and exits to family permanency 
through relative placement, guardianship, or adoption. Over-
representation occurs when there is racial or ethnic disparity at any 
of these points of intervention, which in turn contributes to the 
condition of disproportionality within the system.

ILLINOIS' STORY
    Illinois has had an unfortunate and extensive history of 
disproportionality within its child welfare system. A 2008 study by the 
University of Illinois at Urbana-Champagne School of Social Work's 
Children and Family Research Center shows that the state's foster care 
population climbed from 15,000 children in care in 1987 to 51,000 
children in care in 1997, and that this growth in the overall service 
population was primarily in the African American and kinship care 
populations.
    In 1987, 56% of the children in care were African American, and 28% 
of the population was living with kin. Beginning in the early nineties, 
there was an increase in the number of African American children living 
with kin that came into foster care. At that time, children left by a 
parent in the care of kin could be brought into state custody on a 
neglect petition (neglect by a parent who may have been absent from the 
home since birth). Whether the child was safe, or in need of 
protection, was not the top consideration. By 1996, national data 
showed that Illinois had the highest per-capita rate of children in 
foster care in the nation at 17.1 per 1,000, and the majority of the 
children in foster care (79%) were African American.
    This trend continued beyond the 1990's. Although the state reduced 
its overall number of children in care down to 16,000 children in 2007, 
African American disproportionality still permeated the system. In 
2007, African American children made up 19% of Illinois' general 
population but accounted for 59% of the population of children in the 
child welfare system. The data showed that in Illinois, African 
American children were more likely to be removed from their families, 
remain in substitute care for longer periods and were more likely to 
transition or ``age out'' of substitute care than children from other 
racial groups.
    The greatest amount of disparity was in the likelihood that an 
African American child would be investigated for maltreatment. African 
American children were over represented in the rate at which they 
entered foster care across the state, and this disparity had worsened 
over the previous five years. In Cook County, African American children 
were less likely to exit to permanence. It was clear that the system 
was in urgent need of reform to address the perpetuation of 
disproportionality and disparity.

THE PROCESS OF REFORM IN ILLINOIS
    In July 2006, DCFS and the Central Region (the state region 
representing over half the state's counties) in partnership with the 
DCFS African American Advisory Council, Illinois State University 
School of Social Work, and the Illinois African American Family 
Commission began planning for a Permanency Enhancement Symposium to 
examine permanency options, practices and procedures in the Central 
Region.
    The goal of the Permanency Enhancement Symposium was to share 
information on the importance of building a partnership with birth and 
foster parents, community--based organizations, private and public 
child welfare professionals, and court personnel to improve permanency 
outcomes, safety and stability for children in the care of the state. 
The Symposium guided the development of Action Teams and Action Plans 
that are charged to: 1) maintain children in the home; 2) improve 
reunification outcomes; 3) improve adoption/guardianship outcomes and; 
4) address the disproportionate representation of African American 
children in foster care.
    The Permanency Enhancement Symposium provided a forum for 
discussion among key child welfare stakeholders about the uncomfortable 
reality of perpetuated systemic disproportionality. Information from 
the Permanency Enhancement Symposium process revealed that race acts as 
a key factor in placement and permanency decisions. Moreover, the 
conversation showed that race relations in the respective counties and 
the role of race-based DCFS internal policy, procedures and practices 
may contribute to the disproportionate representative of African 
American children in out-of-home placements.
    The Central Region has taken the lead in understanding and 
analyzing systemic racism to address the over representation of African 
Americans in the state's child welfare system, and to improve 
permanency outcomes and quality assurance. Community dialogs have been 
held to engage key stakeholders in the Action Team process. 
Conversations regarding disproportionality are linked with 
conversations of racial equity, or the lack thereof, for African 
Americans and other people of color. We believe that to have productive 
conversations regarding disproportionality, it is important that all 
participants have a shared definition and common language concerning 
racial equity. Moreover, we believe that teams of committed and 
dedicated individuals are needed to guide the Department in this 
effort. Therefore, Transformation Teams are being formed statewide to 
help the Department.
    The purpose of the Transformation Teams is to examine the role 
institutional racism plays in the overrepresentation of African 
American children in the child welfare system and in the practices 
within the Illinois Department of Children and Family Services. Racism 
can be defined as ``racial prejudice coupled with the misuse of power 
by systems and institutions'' (DCFS Workshop on Racism and Anti-Racism, 
Crossroads Antiracism Organizing and Training, 2008).
    Since the road to racial disparity and disproportionality often 
begins at the point of entry into the child welfare system (e.g., calls 
to child abuse hotlines, investigations), it is important that child 
welfare professionals, from frontline staff to agency administrators, 
are aware of how their personal and cultural biases, as well as their 
power to make decisions, may contribute to the overrepresentation of 
African American children in substitute care.
    Throughout 2008 and 2009, Transformation Teams will work to shape 
awareness of systemic racism within an institution and analysis of the 
specific barriers to change; create an anti-racist multicultural 
``table'' with a new understanding of the task of building an anti-
racist institution; and build new organizational structures that share 
power of decision of making. The Central Region Transformation Team 
will also select targeted communities in which to implement family 
advocacy and support projects.
    This model of change relies on heavily on the principles of 
community engagement, and seeks to engage the many varied stakeholders 
that comprise the child welfare community. These include parents and 
families, faith-based organizations, the courts, the educational 
community, and social workers and other professionals that work 
directly with families.

THE OUTCOME OF REFORM IN ILLINIOS
    Ultimately, the reform process in Illinois seeks to identify DCFS 
policies and procedures that contribute to disproportionality; 
recommend anti-racism legislative and policy changes; improve relations 
with court personnel, birth parents and community leaders; and improve 
permanency outcomes, including intake and reunification.
    Although the initiative is still in its early stages, the 
Commission has already recognized several qualitative outcomes of the 
ongoing work. First, the Permanency Enhancement Symposium effectively 
engaged a wide ranging group of child welfare stakeholders in an open, 
honest, and difficult dialog that allowed the group to directly address 
the issue of disproportionality within the system. This forum for frank 
discussion enabled the group to begin to identify decision points and 
institutional practices that have contributed to ongoing conditions of 
disproportionality and disparity.
    Second, because the Permanency Enhancement Symposium involved court 
personnel and judges in the shared process of examining the systemic 
shortcomings that continue and exacerbate racial disproportionality and 
disparity, these key stakeholders in the system have responded with 
heightened awareness to the issue. Disclosure by some judicial 
professionals revealed that their intent to focus on ``families and not 
their skin color or background'' may have obscured the issue of 
systemic disproportionality and not allowed them to directly address 
it. This important realization has enabled them to begin to take steps 
to incorporate an understanding of disproportionality's causes and 
costs into their work.
    University of Illinois at Urbana-Champagne School of Social Work's 
Children and Family Research Center has recently published an 
assessment of the conditions of disproportionality and disparity 
presented by Illinois' public child welfare system, and will continue 
to actively evaluate the work and outcomes of the reform process.

OTHER STATE SUCESSES
    The work in which Illinois is engaged mirrors strategies other 
states are employing to ensure that African-American children are not 
more likely to be removed from their homes or age out of foster care 
without an adoptive family or other permanent placement, or less likely 
to be reunited with their families.
    2005 data from Texas showed that African-American children in Texas 
were almost twice as likely as Anglo or Hispanic children to be 
reported as victims of child abuse or neglect. African-American 
children were also more likely to be the subject of substantiated 
reports of abuse and neglect, and ultimately to be removed from their 
families. They were also spending significantly more time in foster 
care or other substitute care, were less likely to be reunified with 
their families, and waited longer for adoption than other children.
    Senate Bill 6 was passed in 2005 and pushed the state toward 
comprehensive reform of Child Protective Services (CPS). The state 
analyzed data related to removals and other enforcement actions, 
reviewed policies and procedures in each child protection region, and 
developed plans to remedy disparities. CPS has enhanced training for 
service delivery staff and management, developed collaborative 
relationships with community partners, increased staff diversity, and 
improved targeted recruitment efforts for foster and adoptive families.
    In addition, Texas was one of 13 states selected to participate in 
a ``Breakthrough Series Collaborative on Disproportionality'' sponsored 
by Casey Family Programs and the Annie E. Casey Foundation. The goal of 
this initiative was to identify practices, policies, and assumptions 
that contribute to disproportionality in the child welfare system, and 
engage agency staff, community partners and leaders in eliminating 
those problems. Illinois' collaborative approach to reform is closely 
aligned to the successful model of agency action and stakeholder 
involvement used in Texas.

NAPCW DISPROPORTIONALITY WORK
    Nationally, NAPCWA has made the issue of disproportionate 
representation of children of color in the child welfare system one of 
its highest priorities. Public child welfare administrators recognize 
that disproportionate representation and the disparate treatment of 
certain cohorts of children exist in child welfare; furthermore, NAPCWA 
acknowledges that the over-representation of these cohorts negatively 
impacts child and family outcomes. As a result, NAPCWA has focused on 
developing materials and tools to help members assess how their 
agencies are performing under a more systematic and systemic approach. 
Our most recent effort is the development of the Disproportionality 
Diagnostic Tool created to help state and local jurisdictions examine 
disproportionality.
    The Disproportionality Diagnostic Tool helps users examine 
societal, agency, and individual factors that may be contributing to 
disparate treatment of certain groups of children (e.g. African 
American or Native American Indian children). The tool provides a 
preliminary assessment to help users identify and analyze the root 
causes of disparate treatment that children of color tend to face. The 
tool also contributes to the agency's understanding of baseline data 
about the existence of disproportionality in child welfare.
    NAPCWA will be improving the diagnostic tool by adding a section of 
written guidance, including reflective questions that child welfare 
agency personnel should consider as they develop a plan of change and 
move to take corrective action against disproportionality and 
disparities within their agencies. APHSA's Policy & Practice magazine 
will also feature an article about the diagnostic tool this winter to 
raise continual awareness about the issue.
    As another effort to reduce disproportionality and eliminate 
disparities, NAPCWA, in partnership with Casey Family Programs, is 
leading a national project called the Positioning Public Child Welfare 
Initiative: Strengthening Families in the 21st Century (PPCWI). PPCWI 
is designed to reform child welfare by positioning the field to speak 
with one voice about its purpose and roles in improving outcomes for 
vulnerable children, youth and families; the principles and standards 
that guide the work of the field and its professionals; and the ways in 
which the field evaluates itself and continuously innovates. Because 
disproportionality has been a historically pervasive issue throughout 
the child welfare system, the issue of disproportionality is addressed 
as an area of concentration in the PPCWI project. A Disproportionality 
Subcommittee comprised of subject matter experts are currently 
concentrating on developing written guidance to be used by the child 
welfare field.

POLICY RECOMMENDATIONS
    The Commission and NAPCWA recommend several actions that Congress 
should take to support states in their efforts to curtail the systemic 
continuation of disproportionality and disparity.
    First, states are already struggling to meet existing program costs 
with limited fiscal resources. Their ability to continue to develop 
initiatives and implement strategies that address disproportionality 
and disparity within the child welfare system will require additional 
Federal support.
    In addition to increased funding to support state-level work around 
disproportionality, a strong Federal commitment to addressing 
disproportionality and disparity may be demonstrated by including 
carefully considered process and outcome measures in the Child and 
Family Services Review (CFSR). This addition to the CFSR should be 
accompanied by additional technical assistance and support to states as 
they work to effect change in their systems.
    The issue of disproportionality should also be incorporated into 
training and education for future child welfare professionals, mandated 
reporters, and workers within other systems. Congressional support for 
this integral element of preparation and workforce development would 
ensure that the next generation of professionals working with children 
and families enter the workforce aware of this issue and better able to 
address it. Federally supported research around this issue would 
further enhance the efforts of both the current and future child 
welfare workforce, and other system professionals to reverse the trend 
of disproportionality and disparity.
    Recent legislation developed and championed by this subcommittee 
has highlighted the need for Federal support of subsidized 
guardianship. We urge Congress to extend IV-E funds to relatives who 
assume legal guardianship of relative children. We also urge Congress 
to support relative care givers by offering them the opportunity to 
benefit from Kinship Navigator Programs and other family connection 
services. Finally, we urge Congress to consider legislation that will 
more fully support reunification services to aid children in returning 
to permanency with their family of origin.

CONCLUSION
    Illinois is one of many states that are struggling to address 
institutionally embedded disproportionality and disparity through 
efforts grounded in ``bottom-up'' processes of practice and policy 
change, as well as the principles of community engagement. We ask that 
members of the subcommittee support states in this bold and important 
work by taking steps to more fully support the systemic reform and 
policy development that is needed to reverse the decades-old trend of 
disproportionality and disparity in our country's child welfare system.
    Thank you for the opportunity to testify, and I'm happy to answer 
any questions you may have.

                                 <F-dash>

    Chairman MCDERMOTT. Thank you very much for your testimony.
    Oronde A. Miller is the director of something called 
systems improvement methodologies at Casey Foundation. If you 
could take a moment to tell us what that is.
    Mr. Miller.

 STATEMENT OF ORONDE A. MILLER, DIRECTOR, SYSTEMS IMPROVEMENT 
              METHODOLOGIES, CASEY FAMILY PROGRAMS

    Mr. MILLER. Thank you, and good morning, Mr. Chairman and 
Members of the Subcommittee. I am Oronde Miller, senior 
director of systems improvement at Casey Family Programs.
    While this work is important to me professionally, it is 
also important to me, personally. In 1972, my brother and I 
were placed in foster care. After being separated for a period 
of time and one failed adoptive placement, we were placed with 
our permanent family in Detroit, Michigan, through Homes for 
Black Children, an adoption agency there in Detroit, Michigan.
    I and Casey Family Programs thank you for the invitation to 
testify today before the Subcommittee about promising State and 
community-based programs and policies to address racial 
disproportionality in child welfare. I would ask that my full 
written testimony be entered into the record.
    Chairman MCDERMOTT. Without objection.
    Mr. MILLER. Casey Family Programs is the nation's largest 
operating foundation focused solely on providing, improving, 
and ultimately preventing the need for foster care. In 2005, 
Casey called for a comprehensive change of foster care and the 
child welfare system to safely reduce the number of children in 
foster care by 50 percent by the year 2020, and reinvest 
savings to improve the well-being of children and their 
families.
    As part of our strategic efforts, we are investing $2 
billion of our endowment to improve outcomes for children who 
are at risk, or who are already involved in the child welfare 
system.
    A number of States have begun to identify and address 
racial disproportionality in child welfare. Texas is one State 
that has been particularly comprehensive and innovative in 
their scope of work.
    The Texas experience illustrates six core elements for 
addressing this issue. The first element is build political 
will to reform the child welfare system overall, with a focus 
on prevention and early intervention. In Texas, after a number 
of tragic child welfare cases, the child welfare agency, State 
legislature, and Governor committed to improving the entire 
child protective services system. The redesign added 
significant resources, which reflected a strong political 
commitment to improving safety for all children, and increased 
supports for relative care givers.
    These additional resources and the following programmatic 
initiatives have produced significant results, not the least of 
which is a reduction in the number of children entering care, 
with the greater reduction in those jurisdictions where the 
State focus is on disproportionality efforts.
    The next essential element is data analysis. The political 
climate I just described created an opportunity for child 
welfare agencies to talk about racial disproportionality. This 
was possible, however, because the State had begun collecting 
and analyzing data years before the reform efforts began. Their 
research found that, even after controlling for factors such as 
poverty, children of color were more likely to enter care, and 
fare worse once in care.
    Given the data and political support, child welfare 
officials committed to make a cultural shift within the State 
child protective services system. Data should be collected by 
race and ethnicity, age, and gender, taking into consideration 
the characteristics of the population, analyzed by region, 
office, and even supervisory unit level whenever possible. This 
level of data allows States to target their response and 
prioritize interventions.
    Casey Family Programs supported research conducted by 
Chapin Hall Center for Children, which found that age is a 
critical factor in racial disproportionality. They report that 
both placement and disparity rates are consistently higher for 
infants. They also found that these disparities at the county 
level vary in relation to characteristics within population.
    Texas officials were committed to operating a values-based 
leadership approach. Child welfare managers and staff evaluated 
how their own practices and day-to-day decisions affected 
outcomes for children of color in care, as well as their 
families. They also developed a culturally competent workforce, 
which includes both training and skills development of current 
staff, as well as efforts to create a more diverse workforce.
    They also implemented the community engagement model, which 
is based on the understanding that community members are best 
equipped to create solutions that work for their specific 
needs, which creates necessary stakeholder buy-in.
    Finally, Texas employed targeted recruitment of foster and 
adoptive families who can meet the needs of children and youth 
who continue to wait for permanent homes.
    States and communities across the country have implemented 
a range of additional initiatives that I would like to 
highlight, but in the interest of time, I will refer to my 
written comments for a full description, and just briefly 
mention a few topical areas, such as: cross systems 
collaboration; performance-based contracting and accountability 
on racial disparities across the continuum; the identification 
and engagement of fathers, paternal relatives and members of 
the extended family support network in the case planning and 
decisionmaking process; and, finally, the identification of 
community-based organizations and support resources available 
to assist families. This is only a small snapshot of the 
exciting and promising work being done at the State and local 
level.
    We believe that the following Federal policy 
recommendations will help States take these initiatives to 
scale where they do exist, and help more communities develop 
them, if they are just beginning to take on this work: invest 
Federal resources and prevention activities that keep children 
safely out of foster care; two, improve efforts to locate 
relatives and engage them in placement decisions that serve the 
best interest of the child; three, grant Indian tribes and 
native children and families equal access to all Federal child 
welfare supports; four, allow Federal training dollars to be 
used to train the full continuum of workers who work with 
children and families who come to the attention of child 
welfare; and five, collect data on the disproportionate 
representation of children of color in all stages of child 
welfare involvement at the Federal level, and require States to 
have in place a plan to collect such data at the State and 
regional level.
    In addition, mandate the States create a plan in 
collaboration with key stakeholders, including families, birth 
parents, alumni of foster care, courts, and other child and 
family serving agencies to address any disparities that are 
revealed.
    We applaud this Subcommittee and the House for passing H.R. 
6307, which includes provisions that address a number of these 
recommendations.
    In closing, as I participate here today, I do so with a 
strong belief that change is possible, and that the outcomes 
that we seek can be achieved, but time is of the essence. On 
average, each day in America, approximately 800 children are 
removed from their homes and placed in foster care. 
Approximately half of those children are children of color.
    I thank you for seeking real change on their behalf, for 
having the courage to address the issue of racial 
disproportionality in child welfare, and for seeking to learn 
about what is working at the State and local level.
    Casey Family Programs is available as a resource to this 
Subcommittee, or to individual Members, for more specific data, 
best practices, or technical assistance, as you continue to 
pursue policy solutions to this issue. Thank you.
    [The prepared statement of Mr. Miller follows:]

    [GRAPHIC] [TIFF OMITTED] T8117.050
    
    [GRAPHIC] [TIFF OMITTED] T8117.051
    
    [GRAPHIC] [TIFF OMITTED] T8117.052
    
    [GRAPHIC] [TIFF OMITTED] T8117.053
    
    [GRAPHIC] [TIFF OMITTED] T8117.054
    
    [GRAPHIC] [TIFF OMITTED] T8117.055
    
    [GRAPHIC] [TIFF OMITTED] T8117.056
    
    [GRAPHIC] [TIFF OMITTED] T8117.057
    
    [GRAPHIC] [TIFF OMITTED] T8117.058
    
    [GRAPHIC] [TIFF OMITTED] T8117.059
    

                                 <F-dash>

    Chairman MCDERMOTT. Thank you for your testimony. Mr. 
Conquering Bear.
    Mr. CONQUERING BEAR. Good morning.
    Chairman MCDERMOTT. You are from South Dakota, is that 
correct.
    Mr. CONQUERING BEAR. Originally, yes.
    Chairman MCDERMOTT. Originally? Okay.

  STATEMENT OF DARYLE CONQUERING BEAR, FOSTERCLUB, STONEHAM, 
                            COLORADO

    Mr. CONQUERING BEAR. Chairman McDermott, Ranking Member 
Weller, and the Members of the Subcommittee, thank you for 
inviting me to testify today. I thank the Members of the 
Subcommittee for their commitment to creating a better life and 
a better future for the half-a-million children who are living 
in foster care today.
    At the age of 13, I was removed from my family and my 
Lakota Sioux tribe. I was placed in foster care in Colorado. 
Five years later, at the age of eighteen, I aged out, 
completely on my own. During the five years I spent in foster 
care I lost touch with my siblings, became disconnected from my 
tribal customs, and drifted from placement to placement.
    I moved four times during the 5 years I was in foster care. 
Living in two group homes and two foster homes, adjusting to 
different schools and rules each time I moved, made it harder 
to stay connected to both my heritage and my family. I was 
separated from my grandmother, the one person that connected me 
with my culture and my heritage. I missed so many important 
moments: my sister's birthday, my brother's high school 
graduation, and holiday celebrations.
    Traditionally, Native American Indian families are very 
close. Before I entered foster care, my younger sister was my 
best friend. As the oldest brother, my role would be to pass 
along my knowledge to my younger siblings.
    In foster care, however, I was separated from my brothers 
and sisters. At first, we saw each other every week, and tried 
to stay in touch as much as we could. Then my brothers and 
sisters were moved to another town. I didn't see them for over 
a year. One brother ran away from his group home, and I was 
sent to a placement far away.
    Being separated from your family is unbelievably hard for 
anyone. It is particularly hard for a child or a teenager, but 
when you are separated from your family, and isolated from your 
traditions and culture, it is even more difficult. Foster care 
took both my family and my culture away.
    When I was young, I looked forward to the day I could 
participate in powwows and sweat lodges, rites of passage that 
in my culture would mean I was becoming an adult. In foster 
care, I wasn't able to take part in those cultural events that 
meant so much to me. As a result, I often feel like an outsider 
in my own Lakota Sioux tribe in South Dakota and in Colorado.
    My experience is not, unfortunately, uncommon. Many other 
American Indian children have similar stories to mine.
    I am convinced one reason I lost connection to both my 
culture and my family is that most tribes cannot access Federal 
child welfare funding to help them serve the children and 
families in their care. More than 560 federally recognized 
tribes are struggling to meet the needs of their members, but 
current Federal law does not allow tribes to receive the direct 
title IV-E funding that would help pay for these services, only 
those tribes that have developed special contracts, where their 
States can be reimbursed for providing supports and services to 
children and families.
    This inability to directly access Federal foster care funds 
limits tribes' capacity to meet the needs of children and 
families in crisis. As a result, tribes are only able to 
provide services to 30 to 40 percent of Native American 
children in foster care, and there is little or no capacity for 
tribes to engage in efforts to help children and families 
remain safely together.
    Tribal children often must go in the care of State 
agencies, reducing the chance that they and their families will 
receive services that are specifically geared to their culture 
and community.
    Thanks to the leadership of this Committee, especially 
Chairman McDermott and Ranking Member Weller, earlier this 
summer the House unanimously passed the Fostering Connections 
for Success Act, H.R. 6307. Among its many important 
provisions, this bill addresses one of the biggest barriers 
facing tribes in their ability to serve abused and neglected 
tribal youth like myself.
    The bill would allow tribes to receive direct Federal 
foster care funding, so that more American Indian children and 
families could remain intact, and children would be able to 
stay strongly connected to the two things that define them: 
their family, and their culture.
    Many experts agree on this policy, including the National 
Non-Partisan Pew Commission on Children and Foster Care. The 
Pew Commission studied the nation's foster care system, and 
recommended that Indian tribes have the option to directly 
access funding to title IV-E. A recent report joined by Pew and 
National Indian Child Welfare Association finds that American 
Indians and Alaska Native children are over-represented in 
foster care, and at more than 1.6 times the expected level.
    In foster care, it shows that American Indian and Alaska 
Native children are less likely than other children in foster 
care to have experienced abuse, but more likely to have 
experienced neglect. States with the greatest over-
representation of Native American children in foster care 
include Alaska, Minnesota, Montana, Nebraska, North Dakota, 
Oregon, South Dakota, Utah, and Washington. Native American 
children make up one fourth to over one half of the foster care 
population in South Dakota, my home State, Alaska, Montana, and 
North Dakota.
    My experiences in foster care have taught me how important 
tradition, culture, heritage, and family are. Today, I am 
voicing the hopes of American Indian and Alaskan Native young 
people across the country who are currently or have formerly 
been in foster care.
    My name is Daryle Conquering Bear, and I am waiting to 
reconnect with my grandmother, who I lost in touch with, as a 
result of leaving my community of the Lakota Sioux tribe when I 
was placed in foster care. We ask you very simply to make 
certain that other children don't have to endure the 
unnecessary losses so many of us have experienced.
    Right now, as we listen to my story, there are more stories 
taking shape, stories of native children being removed from 
their homes and being placed with strangers, losing their 
brothers and sisters. More importantly, losing who they are as 
individuals, losing their culture. We hope that Congress will 
change child welfare legislation to give tribes the ability to 
serve their children and families with culturally appropriate 
care and understanding.
    American Indian and Alaskan Native kids and families have 
waited long enough. The time for real lasting and meaningful 
reform is now. Thank you.
    [The prepared statement of Mr. Conquering Bear follows:]

    [GRAPHIC] [TIFF OMITTED] T8117.060
    
    [GRAPHIC] [TIFF OMITTED] T8117.061
    

                                 <F-dash>

    Chairman MCDERMOTT. Thank you very much. Thank you all, 
particularly Daryle for telling your own personal story.
    One of the questions I have in listening to the witnesses 
today, and I am interested, there are many places where you can 
jump in in the system and have an impact.
    The whole question of the referral to the child welfare 
system, that sort of intake position. In my experience, there 
were lots of policemen and social workers from other sources 
who wind up making the decisions. What States have had the best 
success in injecting services at the front end to prevent 
children from being taken out of the family.
    Is there anything you have to recommend, in terms of what's 
going on, either in your own States or places that you have had 
opportunities to look at, that would suggest a way to use 
additional money or resources to cut off the intake? That is, 
stop the number who come into the system in the first place. We 
know what happens to them once they get in; they are kept 
longer, and so forth.
    So, it seems to me, one of the places we would like to have 
an impact is how to prevent them from getting there in the 
first place. Would money, for instance, kinship money, have 
made it possible for Daryle to stay with his grandmother? These 
kinds of questions arise in my mind.
    So, I would like to hear those of you who are involved. 
Tell us what you have found, what you think.
    Dr. HARRIS. I would like to respond. One of the programs 
that the State of Washington is looking at is a program in 
Ramsey County, Minnesota. What they have done, in terms of 
child protective services and referrals, is the following: they 
have a very elaborate screening process in place, in terms of 
hiring workers for their system. Workers are screened, they are 
trained prior to hiring, so that their rates of cases coming 
into child protective services have dropped by the thousands, 
and it's because people are screened before becoming CPS 
workers.
    What happens in a lot of States, we have people who are 
working in child protective services who are not ``professional 
social workers,'' they don't have the background to adequately 
assess these cases. Consequently, we have inappropriate 
referrals coming in. Some children who are in CPS could 
actually be served in their own homes.
    Chairman MCDERMOTT. Mr. Miller.
    Mr. MILLER. I would like to share some of our observations 
and experiences working with three jurisdictions in particular. 
One is Ramsey County in Minnesota, one is Guilford County, in 
North Carolina, and the other is the State of Connecticut, 
particularly in Waterbury. Each of those jurisdictions----
    Chairman MCDERMOTT. Are these rural counties? Ramsey? I 
don't know the----
    Mr. MILLER. Ramsey County is, yes, the St. Paul/Minneapolis 
area.
    Chairman MCDERMOTT. Okay.
    Mr. MILLER. Guilford County is the Greensboro area in North 
Carolina.
    Chairman MCDERMOTT. Okay.
    Mr. MILLER. In Connecticut, it is in Waterbury.
    Chairman MCDERMOTT. Okay.
    Mr. MILLER. Each of those jurisdictions, and this really 
speaks to some of what was presented in the written testimony, 
but process with partnerships. Particularly, we are working 
with the school systems, because they found that their highest 
referrals were coming from the schools.
    So, they developed really close working relationships, and 
it involved retraining the staff at the school, both 
counselors, administrators, and teachers on mandatory reporting 
requirements. What they also did was develop a pretty elaborate 
process of identifying community-based organizations that 
provided services to children and families, because the schools 
were familiar with those organizations.
    When they observed whether it had to do with cleanliness, 
hygiene, clothing, parent supervision, but it wasn't 
necessarily inappropriate to refer it to the child welfare 
agency if they didn't know of any other resources, but if they 
knew of other resources, they could go to those resources to 
try to identify services and supports for those families.
    So, in each of those jurisdictions, they went through a 
pretty comprehensive process of identifying what existed in the 
community, and developing resource summaries for the schools 
and for other entities in the community.
    Chairman MCDERMOTT. Did they have similar results as Ramsey 
County? Did Guilford and Danbury [sic] reduce the number of 
kids referred.
    Mr. MILLER. They did. They reduced the number of referrals, 
which were their highest, from the schools, and diverted those 
families to community-based resources.
    Chairman MCDERMOTT. Okay. Ms. Solomon.
    Dr. SOLOMON. In Illinois, our child protection workers are 
able to screen calls that are inappropriate for coming into 
care, particularly related to poverty. We can refer them to our 
TANF agency and refer them to community-based organizations to 
get care.
    The other part of this is that the state of child welfare 
is that many child protection workers are reluctant to screen 
children out, because all it takes is a headline in the State 
agency, it's under scrutiny and lawsuits.
    I think the other part of it is that there exists racial 
bias in the reporters. We know some health professionals are 
more likely to report children of color to child protection 
services, as opposed to non-children of color.
    I think it is important for us to look at how we can train 
all mandated reporters to be sensitive to the cultural needs 
and cultural foundations of other ethnic groups. So, I think we 
have to look at how we train social workers, and how we train 
mandated reporters. So, money coming into the child protection 
system to help deflect children, that's important, but also 
training.
    Chairman MCDERMOTT. Thank you. I remember, myself, I have 
seen the whole panoply, from the days when we didn't have 
mandatory reporting, and passed the laws in the State 
legislature, and then watch it go into effect. So, you are 
right, there are real biases that exist.
    Mr. Weller will inquire.
    Mr. WELLER. Thank you, Mr. Chairman, and again, thank you 
to our panelists for your testimony. Mr. Chairman, it is 
particularly helpful when we have those who bring life 
experiences to this issue, which both Mr. Miller and Mr. 
Conquering Bear have shared with us.
    Daryle, I particularly want to thank you for your 
compelling testimony, and personally sharing the experiences 
you have had. I would like to ask you a few additional 
questions, based on your testimony.
    For you personally, what difference would it have made for 
you, as an individual, if you had been able to be placed in 
foster care with another member of your tribe, or within your 
tribal community, rather than with the State.
    Mr. CONQUERING BEAR. Being placed with another Native 
American family, or even with my grandmother, I would probably 
not even be at the place that I am right now. Right now, I am 
struggling for independence. I am independent right now, and 
being part of my culture, relearning every aspect of it is 
pretty hard, because my cousins who are my age, they are 
already at sun dances, they're at sun lodges right now. The 
Sioux nation is going on a powwow that is part of my culture, 
where I'm supposed to be at. I am here. I am outside. I go in 
and watch.
    So, if I was placed with my grandmother, there would be a 
whole lot of changes. I would be proud, and I would be more 
appealing to the Lakota Sioux tribe than I am right now. Being 
placed in foster care, I have become an outsider. Every time I 
go back on the reservation, it takes many steps for me to even 
get my tribal ID, as an example.
    They see being placed in a foster care as kind of a 
disgrace to the family. If I was placed with my grandmother, 
the transition to my adulthood, and manhood would be smoother 
than it is right now, being placed in foster care.
    Mr. WELLER. What steps have you had to take to reconnect.
    Mr. CONQUERING BEAR. To reconnect? Well, at first, when I 
was placed in Colorado, I didn't even know that, in the Indian 
Child Welfare Act, that they're supposed to ask me if there 
were other family or relatives who could take me in.
    Seeing that Native Americans have substance abuse, all my 
family was on the reservation. That was one place I guess they 
didn't want to place me with, but my grandmother lived in 
Colorado at the time, and I did not know that until I was at 
the age of 17, getting ready to age out.
    So, we finally had contact, with the help of my foster 
parents, who are now my adoptive parents. There was that step, 
knowing where she was, and then finally getting my tribal ID. 
They asked for my birth certificate, my Social Security card. 
If they all had that in my file, I wouldn't have bypassed those 
steps, instead of going back on the tribe. They're like, ``We 
can't help you.'' What can you do? I am stuck, as a foster kid 
at the age of 17. What am I supposed to do.
    Mr. WELLER. In your testimony, you stated that you had 
moved five times during the 5 years you were in foster care, 
that you lived in two different group homes and two different 
foster homes, and that you made the point it was difficult to 
adjust to different environments, different families, different 
situations, different schools. That particularly made it 
difficult to stay connected with your heritage.
    From the standpoint of being able to do well in school, how 
did that affect your ability to progress, along with your 
peers, in the classroom in school.
    Mr. CONQUERING BEAR. Well, when I was first placed in 
foster care, I was moved to a group home. Then, for that time, 
they said, ``Two weeks, you're going home,'' and I was like, 
okay. Then 2 weeks turned into 3 months, 3 months turned into a 
year. Then I was placed into a foster home. That didn't work 
out. I went back to the group home. Then, at the age of 14, I 
moved into a foster home where I then stayed until I aged out.
    I went from an urban high school to a high school in the 
middle of nowhere where I graduated with a class of 10. So, 
being able to have my education at one high school was very 
great, and also having foster parents that were really, ``Hey, 
this is my child,'' and that were there for me, and really 
helped me, but still, that cultural aspect was still missing.
    During my senior year, I had my brothers and sisters in the 
State of Colorado. I finally spoke up and was like, ``Can I 
have my brothers and sisters move with me?'' I had to go in 
front of the court. I don't know about the system, but that was 
one step taken that I was passing down the knowledge of my 
customs to them. Hopefully they can learn.
    I picked up some of my culture while I was in care, but not 
all of it. It was a struggle, still.
    Mr. WELLER. It grows from your testimony you are a strong 
advocate of allowing tribal governments to directly access 
tribal IV-E funds, something I have personally been a strong 
advocate of, so I welcome your support for that provision, and 
appreciate the Chairman agreeing that should be a priority in 
the bipartisan bill that we passed, with unanimous support from 
our colleagues.
    Besides allowing tribal governments to have direct access 
to these Federal funds, what other recommendations would you 
share with us regarding tribal youth and foster care, things, 
initiatives, that we should consider.
    Mr. CONQUERING BEAR. Well, one thing that, I don't know if 
this still falls under the title IV-E, but there was just a 
recent article in the ESPN magazine. If we can connect 
something with the youth that will provide them a stable foster 
home with a native family, because I know on the reservation 
they have kinship care, but they don't report it to the State. 
My cousin, who was featured in that story, had something to 
look forward to something, to have a goal with them. I know 
with that, they have an opportunity to go play college ball if 
they stayed in high school, on the reservation, and they got 
picked up by an Indian school.
    So, saying that having some kind of leadership based on 
Native American--I know that in Colorado we have the Denver 
Indian Health and Child Center. One of the members is really 
promoting the culture, headmaster, head dancer. If we could 
have somebody go down or be connected with foster care like 
that and have them look up to you, big brother or big sister 
thing, being native, being the same culture where you come 
from, that would have really been helpful, or would be helpful 
for my other brothers and sisters.
    Mr. WELLER. Thank you. Thank you, Daryle. You are very well 
spoken. We appreciate your testimony this morning.
    Chairman MCDERMOTT. Ms. Berkley will inquire.
    Ms. BERKLEY. Thank you, Mr. Chairman. I appreciate you 
holding this hearing. I think it's very important. Daryle, I am 
sure that your grandmother is very, very proud of you. I think 
all of us are very impressed with not only what you have gone 
through, but what you have become. So thank you for being here.
    I represent the State of Nevada. And 7 percent of the 
children in our population are African American, but 21 percent 
of those that are in foster care are African American. So, 
consequently, this is an issue that we feel profoundly in the 
State of Nevada.
    I know what the research suggests about the 
disproportionality, and all of the many reasons for it, 
including poverty, and single parent homes, and limited access 
to services. We certainly have all of that and more in the 
State of Nevada.
    One area that the people that run these programs in my 
district and in the State tell me would be of help in reducing 
the disproportional share of African American children in 
foster care is the expansion of benefits to kinship caregivers, 
which is a huge issue. I have met with many grandparents, 
aunts, and uncles who have taken in children with no help 
whatsoever, and how challenging this is, to add additional 
people into your family, when you're struggling to keep your 
head above water as it is, with the responsibilities that you 
already have.
    I think many of us are cosponsors of the Kinship caregivers 
Support Act, and the ``Fostering Connections for Success Act,'' 
which would expand assistance to relatives in the form of 
subsidized guardianship payments. I think that's very 
important, and I would like to see us move forward on that.
    I have introduced legislation, and I believe it is very 
similar to the Chairman's legislation on child welfare. My 
legislation is called ``The Partnership for Children and 
Families Act.'' Now, in Nevada, to give you some idea of how 
much stress and strain is on the foster care program in our 
State, in two short years, between 2004 and 2006, the number of 
foster children that we have in the system has increased by 30 
percent. I suspect that when the statistics are in from 2006 to 
2008, we will see a similar, if not higher, percentage of 
increase.
    Consequently, the legislation that I introduced, and is 
very similar to the Chairman's, is very important for my State, 
and for the children that are in foster care. Among other 
things, my legislation would allow States to set up a baseline 
for projected child welfare expenditures. If the States were 
able to spend less than the baseline by safely reducing the 
number of removals of children from their homes, or expediting 
placement to a safe, permanent setting, then the difference 
could be reinvested back into the system in the form of support 
services or training for child welfare workers.
    I wanted to ask Mr. Miller and then Dr. Solomon. Mr. 
Miller, in your testimony, you mentioned the six core elements 
of addressing disproportionality, including reforming the child 
welfare system to increase the focus on prevention and early 
intervention, investing those resources up front, and keeping 
our kids out of the foster care system is not only better for 
the kids, but it's also cost effective.
    Can you give me some idea of how this additional funding 
for preventative services would impact disproportionality.
    Mr. MILLER. On a number of levels. This certainly is the 
case in Texas, where the more detailed description comes from, 
and certainly from the other jurisdictions that we have had the 
opportunity to support and work with.
    The largest thing for the jurisdictions is for the 
jurisdictions, but also for community-based organizations to 
have access to resources to provide services to families. That 
includes substance abuse treatment services, it includes child 
care and other resources for families who work particularly 
awkward hours and very challenging hours, families that work at 
night, families that work evening shifts, and what have you, 
what people might consider non-traditional hours.
    Some of it is basic support, whether it is items for the 
home, like beds and other kinds of items, upkeep and 
maintenance for homes, some of those things that can, in a 
relative sense, easily remedy some of the challenges that 
families are facing.
    So, just jurisdictions having access to resources that they 
can use to make some of those changes, it would prevent 
families from having to lose their children.
    Ms. BERKLEY. It seems like a no-brainer, doesn't it? Yes, I 
know.
    Mr. Chairman, I have one more quick question of Dr. 
Solomon, if I may. Okay.
    Dr. Solomon, in your testimony you mention the need for 
increased Federal support to States to help them provide 
prevention services to at-risk children and families. Do you 
think that legislation such as the reinvestment portion of my 
pending legislation could have a beneficial effect on the 
disproportionality in foster care.
    Dr. SOLOMON. Yes, I do. I think allowing States to be 
creative in identifying and creating State-specific solutions 
is definitely helpful. As we look at how to address racial 
disproportionality, as I stated in my testimony, States are 
using their own resources. I think legislation such as yours 
will allow them to apply, again, specific programs, services, 
and create programs that are unique, not only to the State, but 
also to the different counties within the State. So, I see your 
legislation as being helpful.
    Ms. BERKLEY. Well, I want to thank you all again for being 
here. I appreciate it. I know in a State like mine, that has so 
many needs and has three shifts, so you've got a lot of non-
traditional families and work situations, that I have met so 
many truly wonderful families and relatives that want to take 
care of these kids, and they just can't afford it. A little 
help from the State or the feds would make such an 
extraordinary difference, it would give them an opportunity to 
take care of their loved ones, and that's what they want to do. 
Thank you.
    Chairman MCDERMOTT. Mr. Weller will inquire. Or Mr. Herger, 
excuse me. They look exactly alike; I don't know what's the 
matter with me.
    [Laughter.]
    Mr. HERGER. Thank you very much, Mr. Chairman. I want to 
join in thanking each of our witnesses for your testimony 
today. It is great to have you, Daryle, to hear your story, 
even with all the incredible challenges that you have been 
through in your life.
    I can tell you, sitting up here, to think of someone when I 
was your age, testifying before a Subcommittee of Congress, to 
say it would be terrifying to me would be an understatement. To 
see how well you handle yourself, how well you are doing 
certainly speaks to you, and the great example you can be, and 
role model you can be to those who need help.
    Certainly, Mr. Miller, to see you doing so well, coming 
through the system, what you are doing is so very important.
    The fact that there are disproportionate numbers of kids 
abused and neglected, or even killed, is a terrible tragedy. It 
is a tragedy for any child to be abused or neglected. During my 
6 years as Chairman of this Subcommittee, we spent a great deal 
of time focusing on abuse and neglect in our child welfare 
system, and we heard some incredibly tragic stories.
    What we focused on then, and what I would like to focus my 
question on today and this question has been brought up by 
several other members on the panel, is what we can be doing in 
Congress to prevent this abuse and neglect from occurring in 
the first place.
    In 2004, I introduced legislation that would have reformed 
the Federal child welfare system. Right now, as the Federal 
funding system is structured, the financial incentive is there 
to place and keep kids in foster care. To me, that's the wrong 
incentive. It contributes to excess numbers of children in 
foster care, as we are discussing today.
    My 2004 bill would have given States more flexibility in 
spending Federal money up front for prevention activities and 
other services to prevent abuse and neglect in the first place.
    Mr. Miller, again, you have referred to this some, but do 
you think that these reforms, giving States flexibility to 
spend current Federal dollars on prevention activities would 
help, and what more can we do to see that this type of front-
end prevention-based approach is promoted.
    I might add this. As you are undoubtedly aware, we are 
tight with funds here. We are spending more than what's coming 
in. So, particularly, I would be interested in what you see 
perhaps we can redirect to spend in a wiser way. Again, if we 
can spend it up front to help prevent this before we get into 
the cycle of what you have been through, where we go from 
family to family, I would be very interested.
    I also want to State that I want to thank the Casey 
Foundation, which has been so instrumental in working in this 
area in the work that you are doing. Again, I would like to 
further hear your comments.
    Mr. MILLER. What I would say is that I think that the 
efforts to increase the flexibility that public child welfare 
agencies have to draw on resources for prevention activity, I 
think that's the right direction.
    What I would also say is that I think that there are 
examples around the country of jurisdictions who have been very 
creative. I think one of our challenges really is to better 
understand what those jurisdictions have done, and how 
effective they have been. I think that could really guide our 
efforts, moving forward. Particularly, I look at jurisdictions 
like Los Angeles, and some of the creative work that they have 
done.
    I think that there is more that we can learn from 
jurisdictions that have been successful. So, I don't mean this 
necessarily in a disrespectful way for anybody who is involved 
in this work, but sometimes I think that we get into a space 
where we think that there are new answers that we just haven't 
discovered. I really think that we have strong success stories 
around the country, and I think part of our challenge is better 
understanding what has worked.
    Mr. HERGER. I thank you. Anyone else have a comment, and 
would like to respond? Ms. Brown.
    Ms. BROWN. I would just like to add that in our survey with 
State child welfare directors across the country, we did hear a 
lot of the same kinds of things, as far as the fact that they 
would like to see more flexibility and a greater emphasis on 
prevention in the front end, before children do run into 
trouble and enter the system.
    The other thing that I heard consistently in these stories 
was the fact that data helped people understand where the 
problems began, and what the sources were. To the extent that 
we can continue to collect meaningful data that sheds light 
both on what other kinds of prevention services are needed, as 
well as what works, I think it would be very helpful. We 
actually suggested that HHS do more of this in our report.
    Mr. HERGER. Thank you very much. Thank you, Mr. Chairman.
    Chairman MCDERMOTT. Thank you. Mr. Stark will inquire.
    Mr. STARK. Thank you, Mr. Chairman. I have some good news 
for those States who choose to do the right thing. I will tell 
you, Dr. Harris, Dr. Solomon; Ms. Brown knows this, but Mr. 
Miller is going to find out, that for 40,000 African American 
children in foster care, we suspect that they are eligible for 
survivor or disability benefits, and they're not getting them. 
That's $400 a month, $5,000 a year.
    There are 30,000 foster care children now receiving those 
benefits. The trouble is that some States, who I choose not to 
identify here for fear of embarrassing the highest ranking 
member of this Subcommittee, some States take that money and 
just dump it in the general fund. It belongs to the kids, by 
law. Although we had a little fight, up to the Supreme Court, 
but the States put it in their general fund pocket, and they 
can pave roads with it, or pay for cops, or build prisons, 
whatever they want to do, and they don't give it to these 
children.
    Think a minute. Most of the children qualify because of a 
disability. Some qualify because they are orphans, and they get 
a survivor benefit. I am going to submit to you that, in either 
case, those almost 100,000 kids out of the 500,000 are the most 
severely hurt, because they have a disability of either being 
an orphan or a disability that is a physical disability.
    So, if we did what I think is the right thing, and I am 
hoping that I can get certain States to change their mind, and 
other States to come along. California, by the way, Mr. Herger, 
does the right thing. That money, by law, belongs to the child. 
The State gets a hold of it because they become the guardian.
    Most guardians have to report to Social Security each year 
what they do with that money, either spend it on the child's 
behalf which, in the case of a disabled child, would mean maybe 
getting them treatment, extra help at school, tutoring, perhaps 
medical help that they might need. If, in fact, they get it as 
a survivor, it could be saved.
    I am going to ask Daryle what he would have done if he had 
had 4 years and put $5,000 a year. If he matured out of being 
in foster care, wouldn't it have been nice to have $20,000 set 
aside in a savings account, which you could have used for 
education, or to buy a car, or to move out.
    Now, what I think we're doing is the wrong thing. I didn't 
go to law school, so I can't define shyster, but it comes 
pretty close. There are companies who go to States and they 
say, ``Let us go through your list. We will find the kids that 
are eligible for these benefits, and then we will turn it over 
to the States, and we will take something off the top, a 
commission for finding them.'' So, not only do the States not 
get the full tilt, they have to give some to these highbinders 
who go through it.
    I guess what I am going to ask you all is that shouldn't 
we, in a matter of fairness, take this money, which goes to the 
most severely challenged children in our system, and act as 
good guardians for them, and do what the law intended, either 
spend it on their behalf, or save it for their adulthood, which 
is what the law would require for, say, children of regular 
parents.
    Is there anybody, I won't embarrass Dr. Harris, Ms. Brown I 
am going to ask to do more research on this, to certify my 
numbers, but Mr. Miller, Dr. Solomon, what do you think? Would 
you support that law? The States won't like it who get it now, 
because it goes to pay salaries.
    Dr. SOLOMON. I think you have more wisdom on this topic 
than I do.
    Mr. STARK. Yes.
    Dr. SOLOMON. It's a complicated issue. So, as a scholar, I 
need to see more research, and I am looking for a report----
    Mr. STARK. Okay, I get you----
    Dr. SOLOMON [continuing]. From GAO on this.
    Mr. STARK. You gave me some of the information, didn't you, 
Ms. Brown.
    Mr. Miller, can we get Casey Foundation to help us raise 
some money for these poor kids.
    Mr. MILLER. I would just like to reiterate that I think 
that both are very important, just in terms of the prior 
discussion about flexibility, but also increased resources, and 
jurisdictions really using those resources to support children 
and families.
    Mr. STARK. Yes, but there is no guarantee that they do. 
That's the problem. The States can just pop this money into the 
general fund and use it for whatever they want.
    I would stipulate with you if they used it for the kids, 
they would make a difference, but in most cases, they don't. 
The States' answer is, ``Well, we have a burden of supporting 
the foster care system,'' which is true.
    I am talking about the most critically damaged children 
because, in addition to the problems of foster care, they have 
a problem of a disability. I am hoping that I am going to get 
some sympathetic help here from the States other than 
California, which do the right thing, as we change the laws a 
little bit to require the States to handle this money properly.
    Thank you, Mr. Chairman, for letting me trash the State of 
Washington.
    Chairman MCDERMOTT. I will remember that.
    [Laughter.]
    Chairman MCDERMOTT. Mr. Davis will inquire.
    Mr. DAVIS. Thank you, Mr. Chairman. Let me, if I can, ask 
the panel about something that has been of interest to me for a 
while, and it is the persistent problem in recruiting African 
American families, particularly African American families who 
are reasonably upper income, who have the means to adopt.
    I was looking at the briefing material that the Committee 
prepared, and I think that HHS did a review in the first part 
of this decade, and found that something like less than half, 
21 of 50 States, were actually deigned to be sufficient or 
successful in recruiting minority families.
    So, I wanted to ask two questions. What States are doing a 
good job? Empirically, what are they doing.
    [No response.]
    Mr. DAVIS. Don't want to ask everyone to respond at the 
same time, but who is doing a good job of recruiting minority 
families to adopt.
    Dr. SOLOMON. Well, I think one issue that we have always 
said and looked at is that African American families adopt 
equally to non-African American families. So that's one part.
    As for the adoption of Safe Family Act, there was no moneys 
or any penalty attached to non-recruitment, but State agencies 
are required to recruit based on the racial composition of 
children coming into care, but I don't think there was any 
moneys there to support recruitment, and also any, and I don't 
like using the word ``penalties,'' but there were no penalties 
or any accountability around recruitment.
    So, I think the first step is to start there. What's the 
accountability, and are we putting moneys there to support more 
recruitment.
    Mr. DAVIS. Let me maybe come at it this way, because 
obviously, financial incentives are a part of it; making sure 
that families get the benefits that they need.
    Let's take, hypothetically, a black lawyer at a firm in 
Atlanta who is making $200,000 a year, his wife is a doctor at 
the hospital, she is making $170,000 a year. Whether or not 
they adopt, I suspect, is not based on a set of financial 
incentives, particularly if they have a reason they can't 
conceive, don't have children of their own, or just want an 
expanded family, and see a social need to do this.
    I know we're a Subcommittee, I know we're a Government 
Committee, and we have resources, but put the resource question 
aside for a moment. What is it that we can do, in terms of 
affecting cultural mindsets? What is it that we can do, in 
terms of encouraging more African American families of means to 
adopt? What cultural social message do we need to carry.
    Mr. MILLER. I would like to say I think that there are----
    Dr. HARRIS. I think that we need to get the message out 
there, that there are African American children who need homes. 
We have, in my community, there are middle class African 
American families who do have the resources to adopt children. 
They don't know that these children are out there, waiting for 
families.
    I volunteer for the Children's Home Society of Washington, 
to actually go out and recruit families. I am not getting paid 
to do this, but it is something I am doing on my own, because 
there are infants, there are young children, who need homes. I 
am going around to churches, particularly targeting churches 
with middle-class families, to try and find families for these 
children.
    I think that we need to educate middle class and upper 
class families about the adoption process. Some families have 
very negative messages that they have received regarding social 
service agencies and the adoption process.
    Mr. DAVIS. Well, my time is running out, but I would just 
make this observation. There have been times when we have 
managed to change mindsets. We reduced smoking in this country, 
as we have educated people about the dangers around it, for 
example, and we changed our notions about welfare in the mid-
nineties.
    I think it would be very interesting for the Committee and 
for the congress to look at the question of what kind of 
advertising, what kind of message we could engage in at the 
State level with the agencies to try to let African American 
families know, because I would only disagree with one thing you 
said, Dr. Harris.
    I can't imagine that anyone well educated and well heeled 
doesn't understand there are a lot of black kids who don't have 
families who are in foster homes. I suspect it's not that they 
don't know about the problem, but I think that, for whatever 
reason, they are not motivated or instigated to engage 
themselves by going out and adopting.
    Thank you, Mr. Chairman.
    Chairman MCDERMOTT. Mr. Miller, you were going to say 
something earlier.
    Mr. MILLER. Yes, and I will be brief. What I wanted to say, 
a couple of things. One is that I think there are very 
effective programs that are out there. One that I think most 
people, or a lot of people, are familiar with is One Church, 
One Child. So, that motto has been adopted around the country.
    I don't know that jurisdiction----
    Mr. DAVIS. What do they do, exactly? What does One Church, 
One Child do.
    Mr. MILLER. One Church, One Child started in Virginia, but 
it really is a model for recruiting, targeted recruitment 
efforts of families to adopt. The program really started with a 
focus on recruitment of families to adopt black children. So a 
lot of jurisdictions have adopted that motto and approach. 
There are a lot of programs and private agencies who have been 
very effective at doing it.
    I think one of the problems that I have experienced is that 
public child welfare agencies don't always have the dedicated 
staff to follow up with families, and so there are, in fact, 
many families that come in, and since you're raising the 
question, African American families that come to the child 
welfare agency and inquire, but the child welfare agency isn't 
always as timely in responding. A lot of that is just because 
of resources, physical human resources, to respond to the 
inquiries that come in, and to keep those families engaged.
    Psychologically, it takes about a year for families to 
really make the commitment after they have started to think 
about it. So, somehow, agencies being able to stay connected to 
those families after they express an initial inquiry, until 
they start the licensing process, is challenging for agencies 
to really dedicate the staff to really reach out and stay 
connected, and keep those families engaged.
    If agencies had more staff time or dedicated resources to 
really make those connections, keep them coming to the interest 
meetings and what have you, then they would probably increase 
the rate of adoption of children, and particularly African 
American and other cultural families staying engaged through 
the licensing process.
    Mr. DAVIS. Okay. That's helpful. Thank you.
    Mr. WELLER. Mr. Chairman.
    Chairman MCDERMOTT. Yes.
    Mr. WELLER. As Dr. Solomon knows, actually, the One Church, 
One Child program was actually started at Holy Angels on the 
south side of Chicago in Illinois. So, we take the pride of 
ownership of that as a program which HHS and so many others----
    Mr. DAVIS. They make good presidential candidates from the 
south side of Chicago, too.
    [Laughter.]
    Chairman MCDERMOTT. You get a rebuttal.
    Mr. WELLER. I am going to refrain from getting into common 
politics and presidential politics here, but I do want to note 
that that One Church, One Child program is a program that is 
successful. It has received national recognition. Minority 
children have been the primary beneficiaries of this program.
    I would ask unanimous consent if we could put some 
additional information at this point in the record this 
program, because it's a program where churches agreed to share 
information, and encourage someone in the parish or within the 
church to provide an adoptive home.
    So, thank you, Mr. Chairman.
    Chairman MCDERMOTT. Without objection.
    Chairman MCDERMOTT. Also, if there are questions that 
members want to put to any of the witnesses, they want to send 
them in writing, there is no objection to doing that, as well.
    Dr. Solomon, you have been held up here, so you get your 
say, too.
    Dr. SOLOMON. Well, thank you. I do support what Mr. Miller 
stated, in terms of having more--looking at how child welfare 
agencies respond to families who are interested in adopting.
    Also, I do want to state that the NAPCWA is in support of 
the adoption incentive program that is currently before the 
Senate that will focus on recruitment.
    So, I think, as child welfare agencies look at how they 
respond to families, and particularly African American 
families, because many families are reluctant to come forward, 
there is a lot of the information you want to know, background 
information that's important when you're placing children, but 
how you help families agree to open up and to share information 
not only about the parents, but children in the home as well.
    So, it is a difficult process that requires some more 
sensitivity training by the child welfare staff when they start 
going into the homes and into communities. This is not just a 
family for your upper-class families, but it's for families who 
are concerned about the well-being of children. Thank you.
    Chairman MCDERMOTT. I am going to take the prerogative of 
starting a second round of questions here for a second, if 
other Members want to ask other questions.
    My question to you, Dr. Solomon, it wasn't a throw-away 
line exactly, but it was a line you just stuck in your 
testimony, and didn't follow up on. I wonder, it's been nagging 
at me as I have listened to all this, and that's the business 
about how much is the fear of the newspaper headline driving 
the intake of youngsters into the system.
    That is, I know that's kind of an amorphous question, but I 
would like to hear you talk about it. If others want to respond 
to that whole issue, every State has a child welfare law based 
on some horrible example of what has happened in that State. I 
do recognize it and I would like to hear you talk about that.
    Dr. SOLOMON. Well, as you know, we have had some serious 
cases in Illinois, where there were about six or seven children 
living in poor conditions. When that hit the headline, the 
child worker, the child welfare investigator, several 
supervisors, their careers were put at jeopardy.
    When that happens, the message to the other child welfare 
investigators and workers is that it's better to bring children 
in, to protect your career, if you will, than to err and leave 
the children at home, and for something to happen two or 3 
months later, because you never, as a professional, you never 
recover from that.
    So, it's best to bring children in, and to have someone 
monitor the case, to provide resources to support the family, 
than to say, ``Well, maybe this family, they don't need to come 
in, but if something happened to that family, I don't want to 
risk the chance.'' It's really just that simple.
    Chairman MCDERMOTT. Does the level of experience, or the 
level of training make any difference? That is, somebody was 
talking about Ramsey County in Minneapolis or St. Paul. If you 
screen and you train very carefully those folks that you give 
this responsibility to, does that make a difference in terms of 
their ability to take the risk that is inherent in letting a 
kid stay in a home setting.
    Dr. SOLOMON. Well, let me answer you this way. First, yes, 
it makes a difference.
    If there is one child in your State or your district----
    Chairman MCDERMOTT. Jurisdiction.
    Dr. SOLOMON. Right, is injured or severely maimed, that's 
an issue. So, all it takes is one child. I can be a perfect 
caseworker and make good decisions on 99 of my cases, but that 
one case, that's all it takes.
    Chairman MCDERMOTT. Okay. Mr. Weller, have you got any 
further questions? If not----
    Mr. WELLER. Thank you, Mr. Chairman. If we have any further 
questions, we will submit them to the witnesses for the record 
in writing.
    Thank you, Mr. Chairman, and thank you to the panel.
    Chairman MCDERMOTT. Thank you to all the witnesses. The 
meeting is adjourned.
    [Whereupon, at 11:33 a.m., the hearing was adjourned.]
    [Submissions for the Record follow:]

    [GRAPHIC] [TIFF OMITTED] T8117.062
    
    [GRAPHIC] [TIFF OMITTED] T8117.063
    
    [GRAPHIC] [TIFF OMITTED] T8117.064
    
    [GRAPHIC] [TIFF OMITTED] T8117.065
    
    [GRAPHIC] [TIFF OMITTED] T8117.066
    
    [GRAPHIC] [TIFF OMITTED] T8117.067
    
    [GRAPHIC] [TIFF OMITTED] T8117.068
    
    [GRAPHIC] [TIFF OMITTED] T8117.069
    
    [GRAPHIC] [TIFF OMITTED] T8117.070
    
    [GRAPHIC] [TIFF OMITTED] T8117.071
    
                                 <F-dash>

[GRAPHIC] [TIFF OMITTED] T8117.072

[GRAPHIC] [TIFF OMITTED] T8117.073

[GRAPHIC] [TIFF OMITTED] T8117.074

[GRAPHIC] [TIFF OMITTED] T8117.075

[GRAPHIC] [TIFF OMITTED] T8117.076

[GRAPHIC] [TIFF OMITTED] T8117.077

[GRAPHIC] [TIFF OMITTED] T8117.078

[GRAPHIC] [TIFF OMITTED] T8117.079

[GRAPHIC] [TIFF OMITTED] T8117.080

[GRAPHIC] [TIFF OMITTED] T8117.081


                                 <F-dash>

                       Statement of Darlene King

    My name is Darlene King and I am providing my testimony for the 
Members of this Committee to hear the silent voices of families who 
have improperly lost their children to the child welfare system. The 
issue of Disproportionality in Foster Care is only a part of the 
problem.
    I am community advocate who sits on the Building Community Partners 
Committee with Michigan Department of Human Services Family to Family 
Initiative in Grand Rapids Michigan Kent County and Our minority 
community is targeted by zip codes 49507, 49506, 49504, for removal of 
our children. Falsified documents are generated to keep the children in 
the system longer and Termination of Parental Rights are massive. The 
limited services offered to families are only between 9 to 5 and makes 
it an obstacle to get the children back also extended family are never 
included.
    These Contracting Agencies have no oversight or accountability 
therefore children remain in the system for years if they are not 
adopted The State of Michigan has a budget of $16,000 dollars for each 
adoption finalization that is given to the contracting agency which is 
why children remain in foster care it is profitable for the agency to 
intentionally keep the children in foster care, and for each foster 
care license for relative caregivers the agency receives $2,300 for 
each facilitated licensure.
    The Office of Children's Obudsman, can only make policy 
recommendation that go nowhere and The Bureau of Adult and Children 
Licensing, give 6 month provisional licensures to the contracting 
agencies when a violation is substantiated and the contracting agency 
only are required to send in a correction action plan which is never 
implemented. Targeted Case Management Fund directs them to target 
populations which are minorities because they will qualify for special 
needs funds. There is no other way for these families to access 
services.
    MCI Michigan Children's Institute is headed by one man 
Superintendent William J Johnson who is the guardian over the State of 
Michigan's State Wards and he is neither elected nor appointed as he is 
a civil servant yet he is the final decisionmaker in adoption he knows 
nothing about the culture of families in minority communities because 
he does not meet with them. Relative placement is not implemented as it 
should be and Family Preservation is non existent
    If you want to reduce the disproportionality in foster care stop 
taking the children, all you have to do is provide the services.

                                 <F-dash>

                    Statement of Elizabeth Bartholet

    My name is Elizabeth Bartholet. I am a Professor of Law at Harvard 
Law School, and Faculty Director here of the Child Advocacy Program. I 
have taught and written about child welfare issues generally, and child 
maltreatment and foster care issues specifically, for more than two 
decades. I am the author of two books and many articles addressing 
these issues, including Nobody's Children: Abuse and Neglect, Foster 
Drift, and the Adoption Alternative (Beacon 1999). I have focused 
significant attention during this time on issues of race in the child 
welfare system, and have authored many articles on such issues, 
including a leading article on race matching and transracial adoption 
entitled Where Do Black Children Belong: The Politics of Race Matching 
in Adoption, 139 U. Penn. L. Rev. 1163 (1991). Selected publications 
are listed on my website at www.law.harvard.edu/faculty/bartholet.
    I am now at work on a major article addressing the issue of Racial 
Disproportionality in the child welfare system, the topic of your 
hearing. I am troubled by the nature of the Advisory for this Hearing, 
as it appears to buy into ideas about the nature of Racial 
Disproportionality that I think are fundamentally flawed. I hope that 
the Subcommittee will take into account a full range of views on the 
issues.
    There is no question but that African American children enter and 
remain in the foster care system in disproportionate numbers as 
compared to their percentage of the general population and as compared 
to children of some other races and ethnic backgrounds. I will refer to 
this as Racial Disproportionality. I share the Subcommittee's view that 
this represents some kind of problem. But the question is, what kind of 
problem.
    There is a large and powerful group of advocates promoting the idea 
that Racial Disproportionality results from racially discriminatory 
decisionmaking in the child welfare system, and that the solution is to 
stop removing as many black children from their parents, and to do more 
to reunify those removed with their parents. I'll refer to this as the 
Racial Disproportionality Movement. This Movement bases its assumption 
about discrimination on the claim that black and white rates of child 
maltreatment are the same, and relies as the Subcommittee Advisory does 
on the National Incidence Studies for support of this claim. The 
problem is that this aspect of the NIS studies has been persuasively 
debunked by respected scholars, and there are many reasons to conclude 
that blacks have higher child maltreatment rates because as a group 
they are disproportionately associated with characteristics that have 
been generally agreed to be valid predictors for child maltreatment, 
including poverty, single parent status, and serious substance abuse.
    Assuming that black children are being removed to foster care 
because of actual serious maltreatment rather than discriminatory 
decisionmaking, it would be dangerous for black children to pursue the 
Movement's goal of keeping more black children at home--it would put 
more children at risk of ongoing serious abuse and neglect.
    This does not mean we should do nothing. Racial Disproportionality 
is a problem even if it is better for black children at risk of 
maltreatment at home to be removed to foster care. Black children 
should not be maltreated in the first place, and although foster care 
serves as a protective institution for those who are at risk at home, 
it is still true that children maltreated and then removed to foster 
care, will as a group not do especially well in the future.
    But the solutions for this problem are very different than those 
proposed by the Racial Disproportionality Movement. The appropriate 
solutions are to focus more efforts and resources on up front child 
maltreatment prevention programs--programs such as Intensive Early Home 
Visitation which reach first-time pregnant women and give them the kind 
of supportive services that can prevent them from falling into the 
patterns that generate child maltreatment.
    I hope that the Subcommittee will look into the Racial 
Disproportionality issue in depth, and not accept the simplistic 
analysis and related prescriptions for ``reform'' that will be pressed 
upon it at this Hearing, and that were uncritically adopted in the GAO 
July 2007 report addressing Racial Disproportionality.
    I have attached hereto as requested my testimony on a related 
matter, in which I responded to the Donaldson Institute Report calling 
for amending the Multiethnic Placement Act. In this testimony I rebut 
the Donaldson Report's various claims, and I urge Congress to reject 
the call to amend MEPA.

                               __________
Response to
    Donaldson Institute Call for amendment of the Multiethnic Placement 
Act (MEPA) to Reinstate use of Race as a Placement Factor
    CCAI Briefing
    6/10/2008
    Dirksen Senate Office Building
    by Elizabeth Bartholet
    Professor of Law and Faculty Director, Child Advocacy Program, 
Harvard Law School
    I am here speaking on my own behalf, but I am also authorized to 
speak on behalf of the National Council on Adoption, the American 
Academy of Adoption Attorneys, the Center on Adoption Policy, and 
Harvard Law School's Child Advocacy Program, for which I serve as 
Faculty Director. We all join in urging you to resist any attempt to 
amend the Multiethnic Placement Act, an Act that took a hugely 
important step forward to protect black children from delay and denial 
of adoptive placement, an Act which the Department of Health and Human 
Services has only recently begun to vigorously enforce, an Act which 
has begun to make an important difference for children.
    I have devoted a good deal of my professional life for more than 
two decades to studying issues of transracial adoption. I wrote what is 
generally considered the leading law review article, in which I dealt 
extensively with the social science related to transracial adoption, 
and also with the evidence as to the impact on black children of pre-
MEPA race-matching policies, policies which resulted in holding 
children in foster care for months, years, and often their entire 
childhood, rather than placing them in other-race homes.\1\ I have 
written many articles and book chapters since, bringing that research 
up to date.\2\
---------------------------------------------------------------------------
    \1\ ``Where do Black Children Belong? The Politics of Race Matching 
in Adoption,'' 139 U. Pa. L. Rev. 1163 (1991).
    \2\ ``Commentary: Cultural Stereotypes Can and Do Die: It's Time to 
Move on With Transracial Adoption,'' 34 J. Am. Acad. Psychiatry Law 
315(2006); ``The Challenge of Children's Rights Advocacy: Problems and 
Progress in the Area of Child Abuse and Neglect,'' 3 Whittier J. Child 
& Fam. Advoc. 3 (2004); NOBODY'S CHILDREN: ABUSE AND NEGLECT, FOSTER 
DRIFT, AND THE ADOPTION ALTERNATIVE (Beacon Press, 1999); ``Private 
Race Preferences in Family Formation,'' 107 Yale L.J. 2351 (1998); 
FAMILY BONDS: ADOPTION, INFERTILITY, AND THE NEW WORLD OF CHILD 
PRODUCTION (Beacon Press, 1999), originally published as FAMILY BONDS: 
ADOPTION & THE POLITICS OF PARENTING (Houghton Mifflin 1993).
---------------------------------------------------------------------------
    It is that research, and that evidence, which I have followed over 
the years to date, that led me to the position that we needed MEPA in 
exactly the form we have

it today, in order to protect black children from the devastating 
damage that delay in adoptive placement causes.
    As a result I worked closely with Senator Metzenbaum and those in 
Congress supporting him in the struggle to get MEPA passed in its 
current form. I'm very familiar with the goals of the MEPA legislation, 
both the 1994 version, which is the legal regime that the Donaldson 
Institute wants us to return to, and the reasons that Sen Metzenbaum 
and others felt it essential in 1996 to amend MEPA to give us the law 
that we have today.
    I have also testified at the Congressional hearing held to 
investigate problems with MEPA enforcement in the early years. And this 
past fall I testified at the hearing held by the U.S. Civil Rights 
Commission on the very same topic raised by the Donaldson Inst. 
Report--whether there is any need to amend MEPA. Notably the CRC has 
not called to date for any legislation amending MEPA, and I think, 
based on the tone of that hearing, it is exceedingly unlikely it will. 
I urge you if interested in the CRC's views to consult with the Chair 
at that hearing, Abigail Thernstrom.
    The Donaldson Institute Report at issue in today's briefing (5/27/
08) calls for a change in MEPA so that it would again allow what MEPA 
was designed to prohibit the use of race to delay or deny adoptive 
placement. Congress should ignore this Report, and I assume it will 
have the sense to do so. The requested amendment to MEPA would return 
us to a regime in which social workers try to ``match'' foster children 
waiting for homes with same-race parents, delaying and denying adoptive 
placement as occurred pre-MEPA.
    By authorizing state officials to use race to decide important 
issues regarding family formation, this amendment would fly in the face 
of our Nation's body of civil rights law, and almost surely be found 
unconstitutional by the courts. Federal and state civil rights laws 
uniformly forbid any use of race as a factor in official 
decisionmaking. MEPA in its current form is consistent with that great 
body of law. MEPA regulations make clear that race can only be used in 
truly exceptional cases and consistent with what is known in 
constitutional law as the ``strict scrutiny'' standard. This is exactly 
what is called for to satisfy the U.S. Constitution, which forbids the 
use of race by official decisionmakers except in an extraordinarily 
small category of cases.
    A great deal of work and thought went into the development of MEPA, 
and into the regulations and guidelines issued by the Department of 
Health and Human Services interpreting and applying MEPA. Similar work 
and thought has gone into implementing MEPA throughout the land, with 
the first major enforcement decisions issued in 2003 and 2005.\3\ We 
now finally have civil rights law governing foster care and adoption 
that is consistent with the rest of the nation's civil rights law and 
with the Federal Constitution. The burden of proof is on anyone who at 
this stage, when we are finally beginning to reap the rewards of this 
process, wants to roll the law back. The Donaldson Report has done 
nothing to meet that burden.
---------------------------------------------------------------------------
    \3\ These decisions appear on my website at http://
www.law.harvard.edu/faculty/bartholet/ under Adoption Resources, MEPA 
Decisions.
---------------------------------------------------------------------------
    The Donaldson Report consists of little more than a series of false 
and misleading claims. First is that the Report is a ``research-based'' 
publication, and that the Institute is ``the pre-eminent research'' 
organization in the field. The Donaldson Institute is well-known in the 
adoption area as an advocacy organization committed to the idea that 
birth and racial heritage are of central importance, and this Report is 
an advocacy document, endorsed by organizations with well-known 
hostility to MEPA. There is nothing wrong with advocacy. But nobody 
should be deceived that this Report contains a fair-minded, unbiased 
assessment of the facts or the social science research.
    A second Donaldson claim is that MEPA is not working to enable 
increased numbers of black children to find adoptive homes, as it was 
supposed to. The fact is that transracial adoptions have increased 
post-MEPA, although not yet as much as we might hope. But it takes time 
for laws to have an impact, and it is only recently that the Federal 
Government began serious implementation efforts, issuing its first 
enforcement decision in 2003, with that decision not upheld on 
administrative appeal until 2006.\4\ In any event, there is certainly 
no reason to think that recreating a barrier to transracial adoption as 
the Donaldson Report calls for will do anything other than make it 
harder to find homes for waiting children. The fact is that more than 
half the kids in foster care are kids of color, and the overwhelming 
majority of the population of prospective parents is not color-matched 
for these kids. Recreating race as a reason to disqualify prospective 
parents, and deter them from even applying, is not the way to find more 
homes for the waiting children.
---------------------------------------------------------------------------
    \4\ Id.
---------------------------------------------------------------------------
    A third claim is that MEPA harms black children by preventing 
social workers from adequately preparing transracial adoptive parents 
to raise black children. However MEPA allows such preparation as any 
fair reading of the law and the HHS Guidelines makes clear. Many many 
agencies throughout the land are currently engaged in educating and 
socializing prospective parents regarding racial issues pursuant to 
this law and these Guidelines. Nothing in the current law requires that 
social workers operate on a race-blind or color-blind basis in helping 
prospective parents understand the challenges involved in transracial 
parenting, or in preparing prospective parents to meet those 
challenges, or in enabling prospective parents to decide if they are 
capable of appropriately parenting other-race children. Nobody that I 
know in the large group of those who support the current MEPA regime do 
this because they believe in an entirely ``race-blind'' system or 
because they don't think race matters. Of course race matters, and of 
course social workers should be free to talk about racial issues as 
they educate and prepare prospective parents.
    What MEPA forbids is segregating the transracial from other 
prospective adopters, and subjecting transracial prospective parents to 
a pass-fail racial attitude test, a test in which they can be 
disqualified if they don't give the state-determined ``right'' answer 
to complex issues about how to address children's racial heritage. It 
also forbids otherwise using race as the basis for eliminating 
prospective parents. History tells us what would happen if social 
workers were again empowered to use race in making adoptive decisions, 
even if they were to be authorized only to use race as ``a factor,'' as 
the Report argues.
    I'll mention just two pieces of that history. First, the fact is 
that from the seventies until MEPA's passage the Federal Constitutional 
rule was that race could be ``a factor'' but not the determinative 
factor in adoptive decisionmaking, the same rule the Donaldson Report 
calls for, and in the name of that rule state agencies engaged in rigid 
race-matching, often locking black children into foster care for their 
entire childhood rather than placing them across racial lines. The 1994 
version of MEPA forbid the use race to delay or deny placement, but 
permitted the use of race as ``a factor.'' Senator Metzenbaum came out 
of retirement to help pass the 1996 amendments to MEPA because he and 
others had concluded based on seeing how the 1994 MEPA was working, 
that it was not working, that allowing social workers to use race as 
``a factor'' meant that they were continuing to use it systematically 
to delay and deny placement, and accordingly the 1996 amendment changed 
the law to forbid social workers from any use of race as a basis for 
decisionmaking.
    The second bit of history I'll mention are the cases in Ohio and 
South Carolina that triggered the Dept. of HHS's first two MEPA 
enforcement decisions. I urge all who might even contemplate the idea 
of following the Donaldson recommendation to amend MEPA to read these 
decisions for themselves. These decisions show in horrifying detail how 
social workers who thought they had the power to use race as ``a 
factor'' in screening prospective transracial parents used that power. 
The decisions describe case after case in which black foster care 
children with serious disabilities were denied homes with eager 
transracial adoptive parents based on decisions that the parents had 
the wrong friends, or the wrong paintings on their walls, or went to 
the wrong church, or lived in the wrong neighborhood, with the children 
then relegated to waiting in foster care yet longer for that needed 
permanent home.
    A fourth Donaldson claim is that there is new research 
demonstrating, in contrast to prior research, that transracial adoptees 
have ``problems.'' The fact is that the entire body of good social 
science still provides no evidence that children suffer in any way by 
being placed in a transracial rather than a same-race home, and it 
provides lots of evidence that children suffer by being delayed in 
finding permanent homes, as they are when we reduce the number of 
eligible homes by using race as a placement factor. The alleged ``new 
and different'' research relied on in the Report shows only that 
different parents may have different parenting styles, and that 
different parenting styles may have an impact on children's attitudes 
including some of their ideas about racial matters. This is hardly 
surprising or new, and it says nothing about whether children are 
better or worse off by virtue of transracial as compared to same-race 
parenting. Indeed despite misleading claims in the Report's Executive 
Summary, the relevant section in the body of the Report concedes that 
the research does ``not provide sufficient basis for reaching 
conclusions about the level of problems experienced by Black children 
in foster care who are adopted transracially compared to those adopted 
by Black families.'' (P. 29)
    The Donaldson Report also expresses concern that there has not been 
enough recruitment of prospective parents of color so that their 
numbers would match the kids of color in the foster care system. The 
fact is that such recruitment has gone on for decades, with the result 
that black Americans adopt at the same or higher rates as whites, which 
is surprising given the socio-economics of race and the fact that it is 
usually the relatively more privileged who feel capable of stepping 
forward to do the volunteer parenting that adoption represents. In any 
event, MEPA in its current form already provides for the kind of 
recruitment that the Report calls for, so there is no need to amend 
MEPA in order to enable such recruitment.
    The reality is that most of the children needing permanent homes in 
this country and in the larger world are children of color, while most 
of the people in a position to step forward to adopt are white. The 
additional reality revealed by the research on transracial adoptive 
families is that love works across color lines. If we want children to 
have the permanent homes they desperately need, we must recognize these 
realities. I urge the CCAI and Congress to reject these calls to move 
backward in time, and instead to embrace MEPA in its current form.

                               __________

ELIZABETH BARTHOLET
Education:
    J.D. magna cum laude, Harvard Law School,1965; Harvard Law Review, 
1963-65
    B.A. cum laude in English Literature, Radcliffe College,1962
    Employment:
    Harvard Law School, Cambridge, MA, Professor of Law, 1983-present
    Morris Wasserstein Public Interest Professor of Law, 1996-present
    Faculty Director, Child Advocacy Program, 2004-present
    Assistant Professor of Law, 1977-83
    Founding Director and President, Legal Action Center, New York, NY, 
1973-77
    Counsel, Vera Institute of Justice, New York, NY, 1972-73
    Staff Attorney, NAACP Legal Defense and Educational Fund, Inc., New 
York, NY, 1968-72
    Staff Counsel, President's Comm'n on Law Enforcement & Admin. of 
Justice, Washington, DC, 1966-67
Selected Committee and Board Memberships:
    Harvard Embryonic Stem Cell Research Oversight (ESCRO) Committee, 
2007-present
    Legal Action Center: Board of Directors, 1977-present; Vice-Chair 
of the Board, 1998-present
    American Academy of Adoption Attorneys, Honorary Membership, 1992-
present
    Boston Fertility & Gynecology Association, IVF Ethics Committee, 
1991-present
    U.S. State Department Advisory Committee on Intercountry Adoption, 
1990-2000
    Brigham and Women's Hospital, Assisted Reproductive Technology 
Ethics Committee, 1990-present
    NAACP Legal Defense & Educational Fund, Inc., New England 
Committee, 1994-98
    Selection Committee for Harvard University Nieman Fellowship 
Program, 1996-97
    American Association of University Professors, Committee A on 
Academic Freedom and Tenure, 1990-93
    Society of American Law Teachers, Board of Directors, 1977-89
    Civil Rights Reviewing Authority of the United States Department of 
Education, 1979-81
    Board of Overseers of Harvard College, 1973-77
    Executive Committee of the Association of the Bar of the City of 
New York, 1973-77
    Overseers' Committee to Visit Harvard Law School, 1971-77
Bar Memberships:
    Commonwealth of Massachusetts, 1978-present
    United States Supreme Court, 1969-present
    District of Columbia, 1967-99
    State of New York, 1965-98
Arbitration and Mediation Associations and Panels:
    American Arbitration Association (AAA)
    Labor Panel, 1980-present
        Commercial Panel, 1995-present
        Massachusetts Commission Against Discrimination, Roster of 
        Mediators, 1998-2002
    American Postal Workers Union and U.S. Postal Service, Regular 
Arbitration Panels, 1988-1999
    Federal Mediation and Conciliation Service, Roster of Arbitrators, 
1991-present
    Mediation Research & Education Project, Inc., Mediation Panel, 
1995-present
    JAMS, Alternative Dispute Resolution Panel, 1997-2004
Selected Publications:
    ``International Adoption: The Human Rights Issues,'' forthcoming 
chapter in Michelle Goodwin, ed., BABY MARKETS, (Cambridge Univ. Press 
2008)
    ``International Adoption: The Child's Story,'' 24 Ga. St. U. L. 
Rev. 333 (2008)
    ``International Adoption: Thoughts on the Human Rights Issues,'' 13 
Buff. Hum. Rts. L. Rev. 151 (2007)
    ``Commentary: Cultural Stereotypes Can and Do Die: It's Time to 
Move on With Transracial Adoption,'' 34 J. Am. Acad. Psychiatry Law 315 
(2006)
    ``International Adoption,'' chapter in CHILDREN AND YOUTH IN 
ADOPTION, ORPHANAGES, AND FOSTER CARE, ed., Lori Askeland, (Greenwood 
Publishing Group, Inc. 2005)
    ``Guiding Principles for Picking Parents,'' 27 Harv. Women's L. J. 
323 (2004); also published in a slightly revised form as chapter in 
GENETIC TIES AND THE FAMILY, Rothstein et al, ed. (Johns Hopkins 
Unviersity Press 2005).
    ``The Challenge of Children's Rights Advocacy: Problems and 
Progress in the Area of Child Abuse and Neglect,'' 3 Whittier J. Child 
& Fam. Advoc. 3 (2004)
    Book Review of Rachel F. Moran's ``Interracial Intimacy: The 
Regulation of Race and Romance,'' 33 Journal of Interdisciplinary 
History 320 (2002)
    Reply, ``Whose Children? A Response to Professor Guggenheim,'' 113 
Harv. L. Rev.1999 (2000)
    ``Taking Adoption Seriously: Radical Revolution or Modest 
Revisionism?,'' 28 Cap. U.L. Rev. 77 (1999)
    NOBODY'S CHILDREN: ABUSE AND NEGLECT, FOSTER DRIFT, AND THE 
ADOPTION ALTERNATIVE (Beacon Press, 1999)
    FAMILY BONDS: ADOPTION, INFERTILITY, AND THE NEW WORLD OF CHILD 
PRODUCTION (Beacon Press, 1999), originally published as FAMILY BONDS: 
ADOPTION & THE POLITICS OF PARENTING (Houghton Mifflin 1993)
    ``Reporting on Child Welfare and Adoption Policies,'' 53 Nieman 
Reports 74 (1999)
    ``Private Race Preferences in Family Formation,'' 107 Yale L.J. 
2351 (1998)
    ``International Adoption: Propriety, Prospects and Pragmatics,'' 13 
J. Am. Acad. Matrim. Law
    181 (1996)
    ``What's Wrong with Adoption Law?,'' 4 The International Journal of 
Children's Rights 263 (1996)
    ``Debate: Best Interests of the Child?,'' with Nerys Patterson, 
Prospect, no. 11, 18-20 (Aug./Sept. 1996)
    ``Beyond Biology: The Politics of Adoption & Reproduction,'' 2 Duke 
J. Gender L. & Pol'y 5 (1995)
    ``Race Separatism in the Family: More on the Transracial Adoption 
Debate,'' 2 Duke J. Gender L. & Pol'y 99 (1995), reprinted as ``Debate 
15: Should Transracial Adoptions Be Allowed?,'' Controversial Issues in 
Social Policy, Howard J. Karger et al, 2nd Ed., 220-27 (Pearson 
Education, 2003)
    ``Adoption Rights and Reproductive Wrongs,'' in POWER & DECISION: 
THE SOCIAL CONTROL OF REPRODUCTION 177-203 (Harvard Press, 1994)
    Articles based in part on FAMILY BONDS: ``Blood Knots,'' American 
Prospect 48-57 (Fall 1993);
    ``Family Matters,'' Vogue 102-06 (Nov. 1993); ``What's Wrong with 
Adoption Law,'' Trial 18-23 (Winter 1994)
    ``In Vitro Fertilization: The Construction of Infertility and of 
Parenting,'' in ISSUES IN REPRODUCTIVE TECHNOLOGY I, 253-60, Holmes, 
ed. (Garland Press, 1992, paperback ed. New York Univ. Press, 1994).
    ``International Adoption: Current Status and Future Prospects,'' in 
3 The Future of Children No.1, 89-103 (Center for the Future of 
Children, Spring 1993
    ``Parenting Options For The Infertile,'' in Frug, WOMEN AND THE LAW 
523-30 (Foundation Press, 1992)
    Book Review of Cheri Register's ARE THOSE KIDS YOURS?, 33 Harv. 
Int'l. L. J. 649-53 (Spring 1992)
    ``Where Do Black Children Belong? The Politics of Race Matching in 
Adoption,'' 139 U. Pa. L. Rev. 1163 (1991)
    International Adoption: Overview,`` chapter 10 in ADOPTION LAW AND 
PRACTICE (Matthew Bender 1988, Supp. 1997)
    ``Proof of Discriminatory Intent Under Title VII,'' 70 Cal. L. Rev. 
5 (1982)
    ``Application of Title VII to Jobs in High Places,'' 95 Harv. L. 
Rev. 945 (1982)
Consulting and Advisory Arrangements:
    Project Consultant to The Hastings Center, Reprogenetics Project, 
resulting in related report entitled ``Reprogenetics and Public Policy: 
Reflections and Recommendations,'' by Parens and Knowles, Hastings 
Center Report Special Supplement (July-August, 2003).
Selected Honors and Awards:
    Henry J. Miller Distinguished Lecture Series at Georgia State 
University, 2007
    Sullivan Lecture at Capital University Law School, 1999
    Massachusetts Appleseed Center, Award for Advocacy on Behalf of 
Foster Children, 1998
    Radcliffe College Alumnae Recognition Award, 1997
    Morris Wasserstein Public Interest Chair at Harvard Law School, 
1996
    Open Door Society, Friends of Adoption Award, 1994
    Catholic Adoptive Parents Association, Media Achievement Award, 
1994
    Adoptive Parents Committee, Friends of Adoption Award for Adoption 
Literature, 1993

                                 <F-dash>

                       Statement of Joe Salmonese
    Written Statement of Joe Solmonese President Human Rights Campaign 
to the Subcommittee on Income Security and Family Support
    On behalf of the Human Rights Campaign (HRC), America's largest 
civil rights organization working to achieve gay, lesbian, bisexual and 
transgender (GLBT) equality and our over 700,000 members and supporters 
nationwide, I submit this statement about the barriers which often 
prevent prospective gay, lesbian, bisexual, and transgender individuals 
or families from becoming foster or adoptive parents.
    In an effort to increase the number of permanent families for 
children in foster care and to maximize efforts to identify relatives 
who can become the legal guardian for children in the foster care 
system, we must ensure the removal of barriers faced by prospective 
gay, lesbian, bisexual and transgender foster/adoptive parents and 
guardians. We know from a recent study published by the Williams 
Institute at UCLA that two million GLB adults report an interest in 
adopting a child or children in the future. This sample includes people 
from all racial and ethnic categories, and suggests that there is a 
potential pool of African-American and Latino GLBT parents, both single 
and couples, who would strongly consider adopting from foster care if 
they were encouraged to do so.
    Recently, the issue of whether same-sex couples should be able to 
adopt was again in the headlines. A presidential candidate stated that 
he believed that only traditional ``two parent'' families should adopt, 
even in light of the thousands of children and youth still waiting for 
what they deserve--a permanent family. Such a position is nothing more 
than an opinion based on personal beliefs, and does not reflect the 
myriad of facts and findings from over 30 years of peer-reviewed 
research concluding that children raised by gay and lesbian parents do 
just fine compared to those raised by heterosexual parents, nor is it 
the opinion held by the leading national child health and welfare 
organizations, including the Child Welfare League of America, the 
American Academy of Pediatrics, North American Council on Adoptable 
Children, and the Evan B. Donaldson Adoption Institute, all of which 
have favorable positions on adoption by gays and lesbians. A personal 
opinion should never stand in the way of placing children in a loving 
family, and it is irresponsible to put up barriers when there are 
thousands of GLBT individuals who are ready, willing, and qualified to 
provide love and support to these children.
    Even though most recent attempts at the state level to ban or 
restrict foster and adoptive parenting by gay and lesbian parents have 
failed, GLBT people continue to experience discrimination in the 
adoption process. The discrimination may be blatant, such as laws or 
policies that restrict or prohibit adoption by lesbian and gay people 
(Florida, Utah, Mississippi laws and religiously affiliated agencies 
that have written policies which forbid placement of children with GLBT 
adults), or a more subtle form of rejection by agencies that will 
accept applications from GLBT individuals and same-sex couples but has 
no intention of placing ``certain children'' with this population and 
often treats them as a family of ``last resort.'' These negative 
experiences keep many loving, qualified adults from taking their first 
step toward foster/adoptive parenting. Research shows that ``word of 
mouth'' is the most effective recruitment tool, and in the GLBT 
community the ``word of mouth'' all too often is that we will be held 
to higher standards, more closely scrutinized, and will wait longer for 
placement of a child. For GLBT people of color, the dual stigma of 
being gay/lesbian/bisexual/transgender AND a person of color often 
generates more anxiety about whether and if one can expect to be 
treated with respect, dignity and viewed as a viable resource for a 
child in need of a permanent family.
    In addition to the potential pool of foster/adoptive parents who 
are GLBT people of color, there are missed opportunities within the 
``relative pool'' of some children in foster care. When social workers 
engage in exploring all options for keeping a child in their family of 
origin, there may be relatives who are GLBT, and because of that are 
not considered as viable resource, either by the social worker or by 
other family members who do not approve of or believe in placing 
children with GLBT parents. When a social worker is doing this ``case 
mining,'' it is imperative to ask about all relatives, including those 
who might be GLBT, regardless of what opinion a family member might 
have about their ability to be a parent/guardian, or the perceived 
``closeness'' to the family of origin.
    Our recommendations for increasing the number of potential families 
for children in foster care include: non-discrimination categories be 
expanded to include sexual orientation/gender identity; training and 
education for recruiters and other agency staff include information 
about working with the GLBT community; recruitment efforts that target 
communities of color be adapted/expanded to specifically reach GLBT-
identified individuals/couples within those communities.
    On behalf of the Human Rights Campaign, I thank you for holding 
this important hearing and for providing the opportunity to submit 
testimony demonstrating how removing barriers to qualified potential 
GLBT parents can help address the challenges facing our Nation's foster 
care system.July 31, 2008, Statement for the Record, Washington Health 
Policy Coalition, Statement

                                 <F-dash>

            Statement of Washington Health Policy Coalition
Cover
    The leadership of the National African American Drug Policy 
Coalition and its affiliate Washington Healthcare Empowerment Coalition 
(WHEC) hereby respectfully submit as testimony in support of the 
evidence-based practice of the Kinship Care Placement Option and 
further suggest to mainstream into the Child and Family Services Agency 
placement protocols. Our primary concern is the lack of practice and no 
attempt to place legacy CFSA wards with kin therefore remaining in 
foster care and ``aging-out'' to the streets of the United States of 
America.
Introduction
    Washington Healthcare Empowerment Coalition (WHEC) is an affiliate 
of the National African American Drug Policy Coalition (NAAPDC) 
organized exclusively for charitable, scientific and educational 
purposes; more specifically to advocate, identify and secure resources 
to ensure access to healthcare, mental health, substance abuse 
treatment and supportive services to the residents and community of the 
District of Columbia. Inasmuch, the District of Columbia like other 
cities throughout the United States is challenged with keeping our 
children safe and in the least restrictive family environment. These 
service systems struggle daily to ensure that our children's families 
are secure and services are appropriate and effective in meeting their 
needs. It is reported that while some children become safer and their 
families grow stronger in the child welfare system, others receive 
inadequate treatment, resulting in outcomes for children that fall 
short of the desired goals of safety, permanence, and well-being 
(Robert Hill, 2005). The Child Welfare system/services was initiated to 
ensure the safety of our children and to provide services and advocacy 
to ensure that these young folks will grow up to be productive citizens 
of our communities. Casey-CSSP Alliance for Racial Equity in the Child 
Welfare System: Synthesis of Research on Disproportionality in Child 
Welfare (2006) espouse that 60 percent of our nation's children who 
live in foster care are children of color; that while under state 
mandated care they suffer far worse outcomes in terms of physical and 
mental health, educational performance, and access to basic services 
and resources despite evidence that parents of color are no more likely 
than white parents to abuse or neglect their children. Albeit, the 
literature of disproportionate representation of children of color in 
the child welfare system has been documented for decades; that is, the 
number of minority children served versus the number of children 
occurring in the population show marked differences and disparities in 
treatment and services. ``Hill (2005) further notes that more than half 
of the 500,000 children in foster care on any day in America come from 
ethnic minority families even though children from minority communities 
make up far less than half of the children in this Country's child 
welfare system.''
Literature Review
    The words used to describe differences among children and families 
of different races are ``disproportionality'' and ``disparity''. Hill 
(2007) gives the following definitions: Disproportionality refers to 
the differences in the percentage of children of a certain racial or 
ethnic group in the country as compared to the percentage of the 
children of the same group in the same group in the child welfare 
system. For example, in 2000 black children made up 15.1 percent of the 
children in this country but 36.6 percent of the children in the child 
welfare system Disparity means unequal treatment when comparing a 
racial or ethnic minority to a non-minority. This can be observed in 
many forms including decision points (e.g. reporting, investigation, 
substantiation, foster care placement, and exit), treatment, services, 
or resources. Research shows that children of color in foster care and 
their families are treated differently from and often not as well as, 
white children and their families in the system. For example, fewer 
African American children receive mental health services even though 
the identified need for this type of service may be as great (or 
greater) for African Americans as for other racial or ethnic groups. It 
should be noted that when children and their families are met by the 
child welfare system they are confronted with the advent of decisions 
made by professionals including but not limited to caseworkers, 
supervisors, agency administrators, legal professionals, school 
personnel, and policy makers. At placement from the home many previous 
decisions are made by these professionals to ensure that the child is 
being placed in a secure environment but also their track through the 
child welfare system. Paxson, (2000) indicated that the decisions that 
researchers examine include: The decision to make a report of potential 
child abuse or neglect to a hotline call; The decision to accept or not 
a report made to the hotline for investigation (accepted report); The 
decision to indicate/initiate a report following investigation 
(indication of substantiation); The decision of placement in foster 
care; The decision of exiting from care; and The decision of return to 
care (i.e. reentry). Paxson (2000) notes that many studies have looked 
at whether a child's or family's race influences the decisions 
professionals make at these stages; while some earlier studies have 
shown conflicting results that may have been due to study design, most 
of the larger, national level studies and more recent research show 
that race is related to professional's decisionmaking at almost every 
stage of the process. As a child move through the system decisions made 
by ``professionals'' regarding care in a wide range of services become 
paramount in the child becoming a productive citizen in our society. 
Hill (2007) notes that ``Numerous studies have found racial disparities 
in services to people of color in a wide range of fields (Institute of 
Medicine, 2002; Krieger 2003; U.S. Children's Bureau, 1997; U.S. 
Surgeon General, 2001; Van Ryn & Fu, 2003; Williams, Neighbors, & 
Jackson, 2003). Research studies in child welfare have revealed racial 
disparities regarding the following: fewer and lower quality services, 
less access to drug treatment services, and higher placement in 
detention or correctional facilities (Courtney, Barth, Berrick, et. 
al., 1996; Everett, Chipunga, & Leashore, 1991; Fein, Maluccio, & 
Kluger, 1990; Stenho, 1990). As a result these individuals often are 
lost in an ineffective system. Concomitant to which these individuals 
find themselves entrenched in situations that include but not limited 
to homelessness, chronic medical conditions such as HIV/AIDS, poverty, 
lack of employability, non-medical care, profound feelings of despair 
and hopelessness and related criminal activity. Saunders, Nelson, and 
Landsmen (1993) found that child welfare system was less responsive to 
the needs of black families than white families in (a) delaying 
intervention until their problems were perceived as chronic and (b) 
failing to address the most processing problems, such as poverty, ill 
health, inadequate housing and unsafe neighborhoods. The notion of 
maintaining the family intactness and reunification has remained an 
important ingredient in foster care services; these intervention 
techniques are not utilizing a means to reunite the family. The notion 
of Kinship Care has been a part of the African American family for 
decades. Services to kin families have been another example of racial 
disparities in service delivery in child welfare (Berrick, Barth, & 
Needell, 1994). While ``informal adoption'' or the rearing of children 
by extended family members has been a cultural trait of blacks for 
generations, it was not until the late 1980's that the term ``kinship 
care'' was coined to denote families in which relatives raised their 
kin within the child welfare system (Geen, 2003; Hill 1977). Black and 
Hispanic children are about twice a likely as white children to be 
placed with kin (U.S. Children's Bureau, 1997). With the advent of 
crack cocaine and HIV/AIDS in the inner cities in the 1980's the number 
of children placed with relatives steadily rose. Between 1986 and 2003, 
for example, the proportion of foster children living with kin went 
from 18 percent to 23 percent (HIll, 2007). In many large cities today, 
most foster children are living with kin (Barbell & Freundlich, 2001). 
Research has revealed that despite their disadvantaged economic status, 
kin caregivers receive fewer services and benefits and lower financial 
assistance than non-related caregivers receive fewer services and 
benefits, and lower financial assistance than non-related caregivers 
(Alstein & McRoy, 2000; Chipungu, Everett, Verdick, & Jones, 1998; 
Gennaro, York, & Dunphy, 1998). Many kinship care families do not 
receive important government benefits: 72 percent receive no welfare 
benefits, about half (47 percent) receive no Medicaid support, and 40 
percent receive no food stamps (Ehrie, Geen, & Clark, 2001). While some 
kinship care families do receive full foster care payments, many do not 
and instead rely on lower TANF (formerly AFDC) payments, while non--
relative foster families receive higher boarder home stipends; (Hill, 
2007). In addition, research studies have also found that kin 
caregivers are less likely than non--kin foster parents to receive 
foster parent training, respite care, educational or mental health 
assessment, individual or group counseling, or tutoring for their 
children; this may be due in part to societal expectations that family 
members should not be paid or should be paid less for caring for their 
family members because of ``filial obligations'' (Schorr, 1980). It is 
noted that Kin placements may contribute to longer stays for children 
for children in their care (Courtney, 1994; Iglehart, 1994; Scannapico, 
Hegar, & McAlpine, 1997; Wulczyn & George, 1992); also children placed 
with non-relatives are three times more likely to be moved to different 
homes than children in kinship care (Geen, 2003). Kinship care is also 
an important cultural strength for family preservation and continuity 
until biological parents are able to resume primary responsibility for 
their children; moreover extended family networks have served as a 
protective factor in mediating child abuse and neglect among black 
families (Cazenave & Straus, 1979; Gould, 1991; Hill, 1999; McPhatter, 
1997). It is further inferred that children when placed with extended 
families are less likely to be involved with criminal behavior, and 
less likely to be in and out of treatment. Hill (2007) notes that a 
comprehensive review of child welfare research concludes that there is 
``a pattern of inequity, if not discrimination, based on race and 
ethnicity in the provision of child welfare services''. This is seen 
when extended family members are denied custody of family members due 
to economic circumstances and the children are sent to ``stay'' in 
foster homes. Services to low income children and families in related 
fields can make more and important contributions to reducing the 
disproportionate representation of minorities in child welfare. 
Increasing funding to Kinship Care is an important catalyst in the 
longevity of children and family cohesiveness to ensure a sense of 
family, unity, and the advent of reunification with the biological 
family members. Inasmuch the following service needs and 
recommendations are being made:
Service Needs & Recommendations
    Child Welfare Agencies to ensure equal opportunity for Kinship Care 
across all cultures if the extended family demonstrates a desire to 
accept children family members in their care; 2. Child Welfare Agencies 
work with other local government agencies, i.e. housing agencies to 
secure funds and/or subsidies to afford housing for Kinship Care; 3. 
Child Welfare Agencies work with local government agencies and/or 
community based or faith based organizations to assist in Kinship Care 
in providing counseling and other adjunct supportive services to ensure 
the longevity of child stay with extended family members; 4. Child 
Welfare Agencies work with public welfare as a means of additional 
funding; i.e. Medicaid, TANF, and other financial sources to ensure a 
financial solvency for Kinship Care; 5. Child Welfare Agencies begin to 
develop a system that embraces, enhances and promotes parent 
engagement/enhancement opportunities for our youth; Conclusion Thus, we 
recommend increase funding and increase services to Kinship Caretakers 
to reduce the number of African American children being placed in 
Foster Care and support efforts to move in this direction aggressively 
to accomplish this objective. Respectfully, Judge Arthur L. Burnett, 
Sr., National Executive Director National African American Drug Policy 
Coalition (NAADPC) Author: Dr. Irvin R. Barnes, WHEC Editor: Katrina A. 
Wilkins, WHEC REFERENCES Bardell, K. & Freundlich, M. (2001) Foster 
Care today. Washington, DC: Case Family. Programs. Barth, R. (1997). 
Family reunification. Child Welfare Research Review, 2: 109-122 
Berrick, J., Barth, R., & Needell, B. (1994) A comparison of kinship 
foster homes and foster family homes. Children and Youth Service 
Review, 16 (1/2): 33-63 Cazenave, N. & Straus, M, (1979). Race, class 
and network embeddedness and family violence. Journal of Comparative 
Families Studies, 10(3): 281-300 Courtney, M. (1994) Time to adopt. In 
R. Barth, M. Courtney, J Berrick, & V. Albert (eds.) From child abuse 
to permanency planning: child welfare services pathways and placements 
(pp. 153-176). New York: Aldine De Gruyter Everett, J., Chipngu, S., & 
Leashore, B. (Eds.) (1991) Child welfare: An Africentric Perspective. 
New Brunswick, NJ: Rutgers University Press Fein, E., Maluccio, K., & 
Kluger, M. (1990) No more partings: An examination of Long term foster 
care. Washington, DC: Child Welfare League of America Geen, r. (Ed.) 
(2003) Kinship care: Making the most of valuable resource. Washington, 
D.C.: Urban Institute. Gould, K. (1991) Limiting damage is not enough: 
A minority perspective on child Welfare issues. In J. Everett, S. 
Chipungu, & B. Leashore (Eds.) Child Welfare (pp 58-78) New Bruswick 
NJ: Rutgers University Press Hill, R.B. (2005) Overrepresentation of 
children of color in foster care in 2000; Race Matters Consortium 
Working Paper Iglehart, A. (1994) Kinship foster care: Placement, 
service and outcome issues. Children And Youth Services Review, 16 
(12): 107-122 Institute of Medicine. (2002). Unequal treatment: 
Understanding racial and ethnic Disparities in healthcare. Washington, 
DC: National Academy Press McPhatter, A.R. (1997) Cultural competence 
in child welfare. Child Welfare, 76(1) 255-278 Paxton, C. & Waldofogel, 
J. (2000) Welfare reform, family resources and child Maltreatment. 
Chicago: Joint Center for Poverty Research Saunders, E. Nelson, K. & 
Landsmen, M. (1993) Racial inequality and child neglect: Findings in a 
metropolitan area. Child Welfare, 72 (4) 341-354 U.S. Census Bureau 
(2005) Income, poverty and health insurance coverage in the United 
States, 2004 Current Population Reports, p 60-229 U.S. Childrens bureau 
(1997) National study of protective, preventive and reunification 
services delivered to children and their children

                                  <all>

</pre></body></html>
